<html>
<title> - EXPLORING COMMERCIAL OPPORTUNITIES TO MAXIMIZE EARTH SCIENCE INVESTMENTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                 EXPLORING COMMERCIAL OPPORTUNITIES TO
                   MAXIMIZE EARTH SCIENCE INVESTMENTS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON SPACE AND
                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           November 17, 2015

                               __________

                           Serial No. 114-49

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://science.house.gov



       
                               ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-768PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
       
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEPHEN KNIGHT, California           MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DRAIN LAHOOD, Illinois
                                 ------                                

                         Subcommittee on Space

                     HON. BRIAN BABIN, Texas, Chair
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             AMI BERA, California
MICHAEL T. McCAUL, Texas             ZOE LOFGREN, California
MO BROOKS, Alabama,                  ED PERLMUTTER, Colorado
BILL POSEY, Florida                  MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            DONALD S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   EDDIE BERNICE JOHNSON, Texas
STEVE KNIGHT, California
Brian Babin, Texas
LAMAR S. SMITH, Texas
                                 ------                                

                      Subcommittee on Environment

                 HON. JIM BRIDENSTINE, Oklahoma, Chair
F. JAMES SENSENBRENNER, JR.,         SUZANNE BONAMICI, Oregon
    Wisconsin                        DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              ALAN GRAYSON, Florida
RANDY WEBER, Texas                   AMI BERA, California
JOHN MOOLENAAR, Michigan             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas            EDDIE BERNICE JOHNSON, Texas
GARY PALMER, Alabama
RALPH LEE ABRAHAM, Louisiana
LAMAR S. SMITH, Texas
















                            C O N T E N T S

                           November 17, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Babin, Chairman, Subcommittee 
  on Space, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    14
    Written Statement............................................    16

Statement by Representative Donna F. Edwards, Ranking Minority 
  Member, Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    17
    Written Statement............................................    19

Statement by Representative Jim Bridenstine, Chairman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    20
    Written Statement............................................    21

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Enviorment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    22
    Written Statement............................................    23

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    24
    Written Statement............................................    25

                               Witnesses:

Dr. Scott Pace, Director of the Space Policy Institute, George 
  Washington University
    Oral Statement...............................................    27
    Written Statement............................................    30

Dr. Walter Scott, Founder and Chief Technical Officer, 
  DigitalGlobe
    Oral Statement...............................................    41
    Written Statement............................................    43

Mr. Robbie Schingler, Co-Founder and President, PlanetLabs
    Oral Statement...............................................    50
    Written Statement............................................    52

Dr. Samuel Goward, Emeritus Professor of Geography, University of 
  Maryland at College Park
    Oral Statement...............................................    63
    Written Statement............................................    65

Dr. Antonio Busalacchi, Professor and Director of the Earth 
  System Science Interdisciplinary Center, University of Maryland
    Oral Statement...............................................    71
    Written Statement............................................    73

Discussion.......................................................    88

             Appendix I: Answers to Post-Hearing Questions

Dr. Scott Pace, Director of the Space Policy Institute, George 
  WashingtonUniversity...........................................   106

Dr. Walter Scott, Founder and Chief Technical Officer, 
  DigitalGlobe...................................................   118

Mr. Robbie Schingler, Co-Founder and President, PlanetLabs.......   127

Dr. Samuel Goward, Emeritus Professor of Geography, University of 
  Marylandat College Park........................................   135

Dr. Antonio Busalacchi, Professor and Director of the Earth 
  System ScienceInterdisciplinary Center, University of Maryland.   141
 
                   EXPLORING COMMERCIAL OPPORTUNITIES
                 TO MAXIMIZE EARTH SCIENCE INVESTMENTS

                              ----------                              


                       TUESDAY, NOVEMBER 17, 2015

                  House of Representatives,
                            Subcommittee on Space &
                        Subcommittee on Environment
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Babin [Chairman of the Subcommittee on Space] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Babin. The Subcommittees on Space and Environment 
will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    And welcome to today's hearing titled ``Exploring 
Commercial Opportunities to Maximize Earth Science 
Investments.'' I recognize myself for five minutes for an 
opening statement.
    Good morning. I would like to welcome everyone to our 
hearing today, and I want to thank our witnesses for taking 
time to appear before our Committee. Today's hearing will 
explore opportunities for NASA to acquire Earth observation 
data through public-private partnerships, including commercial 
capabilities.
    NASA's Earth Science is the largest and fastest growing of 
all Science Mission Directorate programs. In the last eight 
years, the Earth Science Division funding has increased by more 
than 63 percent. One reason for these budgetary increases is 
that NASA's Earth science portfolio has expanded to include new 
responsibilities for the continuation of measurements that were 
formerly assigned to other agencies, including data continuity 
and application-focused satellite observation programs. For 
example, the President's fiscal year 2016 budget request 
redefines NASA and NOAA Earth-observing satellite 
responsibilities. Under the new framework, NOAA is responsible 
only for satellite missions that contribute directly to NOAA's 
ability to issue weather and space weather forecasts while NASA 
is responsible for all other nondefense Earth-observing 
satellite missions.
    The near-term impact of this revised framework includes the 
transfer of responsibility for TSIS-1, the Total and Spectral 
Solar Irradiance Sensor, Ozone Mapping & Profile Suite (OMPS), 
and JPSS-2 Radiation Budget Instrument, or RBI, and future 
ocean altimetry missions to NASA.
    Another example of increased NASA responsibilities is the 
Sustainable Land Imaging, or SLI program. In the past both USGS 
and NOAA have been responsible for development and operation of 
Landsat satellites. But now, NASA is responsible for three 
mission and development activities, including initiation of 
Landsat 9, along with a fourth activity to design and build a 
full-capability Landsat 10 satellite.
    Given our constrained budget environment and NASA's new 
responsibilities, public-private partnerships may offer an 
opportunity to lower costs and improve Earth observation data 
while fulfilling science community requirements, including data 
continuity.
    Over the past decade, the United States private space-based 
remote sensing sector has made significant improvements in 
technology, products, and services. Leveraging commercial off-
the-shelf technology, borrowing ideas from the information 
technology community, and developing innovative low-cost 
solutions with high performance outcomes, the private sector is 
demonstrating new capabilities that could be used to address 
many of NASA's earth observation data needs.
    In the past, Earth observations were associated almost 
exclusively with government-managed or government-sponsored 
projects. Today, commercial sources of Earth information are 
rapidly increasing in availability and scope. Commercial 
satellite systems are now reliable sources of high-resolution 
Earth imagery, and commercial remote-sensing companies have 
greatly expanded their offerings.
    Technology is also rapidly changing. For certain types of 
missions, solutions can be built that are much smaller in size, 
much lower in weight, require much less power, and offer even 
greater data collection capabilities at costs much, much lower 
than the current systems.
    U.S. law and national policy directs NASA to advance the 
commercial space sector. Pursuant to the National Aeronautics 
and Space Act, NASA shall ``seek and encourage, to the maximum 
extent possible, the fullest commercial use of space.'' NASA is 
also directed ``to the extent possible and while satisfying the 
scientific or educational requirements of the Administration, 
and where appropriate, of other federal agencies and scientific 
researchers, acquire, where cost-effective, space based and 
airborne Earth remote sensing data, services, distribution, and 
applications from a commercial provider.''
    A principle of the Administration's United States National 
Space Policy is that ``the United States is committed to 
encouraging and facilitating the growth of a U.S. commercial 
space sector that supports U.S. needs, is globally competitive, 
and advances U.S. leadership in the generation of new markets 
and innovation-driven entrepreneurship.'' Both the 2014 
National Plan for Civil Earth Observations and the 2015 
National Space Weather Action Plan, as proposed by the 
Administration, direct federal agencies to identify and pursue 
commercial solutions.
    Given the great potential for public-private partnerships, 
NASA is unfortunately doing very little. NASA's Earth 
observation program is the largest U.S. government civil remote 
sensing effort and perhaps the largest civil remote sensing 
effort in the world. NASA currently operates 26 Earth 
observation satellites, with 12 under development. However, 
none of NASA's Earth observation satellites, either in 
operation or under development, are public-private 
partnerships. NASA does have a program in place to procure 
commercial satellite Earth observation data under the 1998 
Science Data Buy Program. But, the program has not been used by 
NASA for over a decade.
    It is time for NASA to initiate constructive dialogue with 
the private sector to assess the viability of public-private 
partnerships for the provision of space-based Earth observation 
data to meet NASA program requirements. Our Nation cannot 
afford to simply ignore the great potential of public-private 
partnerships to lower costs and improve the quality of earth 
observation data.
    There are many important issues to be discussed at today's 
hearing, and I look forward to hearing the testimony of our 
distinguished witnesses.
    [The prepared statement of Chairman Babin follows:]

              Prepared Statement of Subcommittee on Space
                          Chairman Brian Babin

    Good morning. I would like to welcome everyone to our hearing today 
and I want to thank our witnesses for taking time to appear before the 
Committee.
    Today's hearing will explore opportunities for NASA to acquire 
Earth observation data through public-private partnerships, including 
commercial capabilities.
    NASA's Earth Science is the largest and fastest growing of all 
Science Mission Directorate programs. In the last eight years, the 
Earth Science Division funding has increased by more than 63 percent.
    One reason for these budgetary increases is that NASA's Earth 
science portfolio has expanded to include new responsibilities for the 
continuation of measurements that were formerly assigned to other 
agencies, including data continuity and application focused satellite 
observation programs.
    For example, the President's FY16 Budget Request redefines NASA and 
NOAA Earth-observing satellite responsibilities. Under the new 
framework, NOAA is responsible only for satellite missions that 
contribute directly to NOAA's ability to issue weather and space 
weather forecasts while NASA is responsible for all other nondefense 
Earth-observing satellite missions. The near term impact of this 
revised framework includes the transfer of responsibility for TSIS-1 
[pronounced Tee-SiS] (Total and Spectral Solar Irradiance Sensor), 
Ozone Mapping & Profile Suite (OMPS), JPSS-2 Radiation Budget 
Instrument (RBI), and future ocean altimetry missions to NASA.
    Another example of increased NASA responsibilities is the 
Sustainable Land Imaging (SLI) program. In the past both USGS and NOAA 
have been responsible for development and operation of Landsat 
satellites. But now, NASA is responsible for three mission and 
development activities, including initiation of Landsat 9, along with a 
fourth activity to design and build a full-capability Landsat 10 
satellite.
    Given our constrained budget environment and NASA's new 
responsibilities, public-private partnerships may offer an opportunity 
to lower costs and improve Earth observation data while fulfilling 
science community requirements, including data continuity.
    Over the past decade, the United States private space-based remote 
sensing sector has made significant improvements in technology, 
products, and services. Leveraging commercial off-the-shelf technology, 
borrowing ideas from the information technology community, and 
developing innovative low-cost solutions with high performance 
outcomes, the private sector is demonstrating new capabilities that 
could be used to address many of NASA's earth observation data needs.
    In the past, Earth observations were associated almost exclusively 
with government-managed or government-sponsored projects. Today, 
commercial sources of Earth information are rapidly increasing in 
availability and scope. Commercial satellite systems are now reliable 
sources of high-resolution Earth imagery, and commercial remote-sensing 
companies have greatly expanded their offerings.
    Technology is also changing rapidly. For certain types of missions, 
solutions can be built that are much smaller in size, much lower in 
weight, require much less power, and offer even greater data collection 
capabilities--at costs much, much lower than the current systems.
    U.S. law and national policy directs NASA to advance the commercial 
space sector. Pursuant to the National Aeronautics and Space Act, NASA 
shall ``seek and encourage, to the maximum extent possible, the fullest 
commercial use of space.'' NASA is also directed ``to the extent 
possible and while satisfying the scientific or educational 
requirements of the Administration, and where appropriate, of other 
Federal agencies and scientific researchers, acquire, where cost-
effective, space based and airborne Earth remote sensing data, 
services, distribution, and applications from a commercial provider.''
    A principle of the Administration's United States National Space 
Policy is that ``the United States is committed to encouraging and 
facilitating the growth of a U.S. commercial space sector that supports 
U.S. needs, is globally competitive, and advances U.S. leadership in 
the generation of new markets and innovation-driven entrepreneurship.'' 
Both the 2014 National Plan for Civil Earth Observations and the 2015 
National Space Weather Action Plan, as proposed by the Administration, 
direct federal agencies to identify and pursue commercial solutions.
    Given the great potential for public-private partnerships, NASA is 
unfortunately doing very little. NASA's Earth observation program is 
the largest U.S. government civil remote sensing effort and perhaps the 
largest civil remote sensing effort in the world. NASA currently 
operates 26 Earth observation satellites, with 12 under development. 
However, none of NASA's Earth observation satellites, either in 
operation or under development, are public-private partnerships.
    NASA does have a program in place to procure commercial satellite 
Earth observation data under the 1998 Science Data Buy Program. But, 
the program has not been used by NASA for over a decade.
    It is time for NASA to initiate constructive dialogue with the 
private sector to assess the viability of public-private partnerships 
for the provision of space-based Earth observation data to meet NASA 
program requirements. Our nation cannot afford to simply ignore the 
great potential of public-private partnerships to lower costs and 
improve the quality of earth observation data.
    There are many important issues to be discussed at today's hearing. 
I look forward to hearing the testimony of our [distinguished] 
witnesses.

    Chairman Babin. I now recognize the Ranking Member, the 
gentlewoman from Maryland, for an opening statement.
    Ms. Edwards. Thank you very much, and good morning and 
welcome to our distinguished panel of experts.
    I want to start by thanking the Chairmen Babin and 
Bridenstine for calling this hearing on ``Exploring Commercial 
Opportunities to Maximize Earth Science Investments.'' I also 
want to thank in advance our Ranking Member on the Environment 
Subcommittee, Ms. Bonamici, for sitting in the chair when I 
slip away in just a few minutes, so I appreciate that.
    Earth observations support a myriad of applications to meet 
critical national needs, whether they be related to national 
security, weather forecasting, agricultural production, land 
use management, energy production, or protecting human health. 
Earth observations also support the scientific research and 
modeling that we hope can someday provide us with a 
comprehensive understanding of the Earth and its response to 
natural and human-induced changes.
    The collection of Earth observations data has been enabled 
by sustained federal investments, investments that I hope we 
will continue to sustain even in the midst of budgetary 
constraints. Those investments have enabled the development of 
a robust, value-added industry dedicated to turning Earth 
observations data into usable information that can benefit 
broad sectors of our economy. Then too, federal investments in 
the underlying Earth observations technologies and systems have 
resulted in capabilities that have enabled a growing commercial 
remote sensing industry to emerge.
    So it makes sense to continuously look for new ways in 
which we can improve our ability to carry out Earth 
observations and maximize our Earth Science investments.
    Today, we will explore the extent to which NASA might be 
able to leverage potential public-private partnerships to carry 
out its Earth Science research and support the applied uses of 
that research.
    Truth be told, NASA has always had prior experience in 
purchasing commercial Earth observation data, and indeed, makes 
great use of the private sector. That was my personal 
experience, having started out at Goddard Space Flight Center 
working on Landsat but not working for NASA but working for one 
of its contractors, Lockheed. And so we've made great use of 
the private sector and its innovation and creativity over many 
years. This is nothing new. In fact, in the late 1990s and 
early 2000s, NASA initiated public-private partnerships for 
Earth science research including one for collecting ocean color 
data, called SeaWiFS. The results from those early projects 
demonstrated potential opportunities as well as challenges 
associated with such partnerships.
    The complexities associated with such arrangements were 
noted in a number of studies by the National Academies of 
Sciences. For example, at least one of those studies noted that 
the intersection of scientific and commercial interests in 
public-private partnerships can pose significant challenges in 
attempting to meet the disparate requirements of stakeholders. 
This is because scientists value the free and open exchange of 
scientific data; the precise calibration, validation, and 
verification of satellite data to ensure accuracy; and long-
term stewardship of data for future use and future research. 
However, that may not always be consistent with a company's 
business goals and models.
    In addition, it's clear that intellectual property issues 
related to licensing will need to be addressed, as well as 
issues related to data management, data continuity, and 
calibration if effective partnerships are to be sustained.
    So today, I am looking forward to hearing whether, in light 
of the potential new commercial capabilities in Earth 
observation, there are productive ways that commercial systems 
can complement NASA's Earth observation data collection through 
the use of public-private partnerships, and if so, what 
mechanisms should NASA use to determine the circumstances under 
which public-private partnerships can effectively support the 
agency's Earth science research and applications, and how 
should those partnerships be evaluated? How can Congress ensure 
that potential public-private partnerships do not inadvertently 
restrict and constrain research in an effort to generate 
revenue for the companies? And, are enacted policies and 
authorities that enabled the advent of commercial remote 
sensing adequate to address the future needs of both the 
federal government and the growing commercial remote sensing 
industry?
    Well, it's clear that there are many issues that need to be 
addressed, and we certainly are not going to be able to do any 
more than begin our examination on this important topic today. 
This can be a productive area for future hearings of the 
Committee, and I hope we will continue oversight of this area.
    I would also note that the National Academies' upcoming 
Decadal Survey for Earth Science and Applications is also 
likely to address a number of these same issues, and I look 
forward to hearing the results of that survey when it's done.
    Finally, I would be remiss if I didn't note that we have 
long had existing productive public-private partnerships in 
Earth observations, and so for the many contractors and 
suppliers who have built a formidable array of both civilian 
and national security Earth observations spacecraft and ground 
systems for NASA, NOAA, and other parts of the government, you 
are testimony to the long-standing commitment our government 
has had to making use of the skills and capabilities of the 
private sector, and they are many. I have every confidence that 
these type partnerships will continue to be productive both 
today in the years to come.
    And with that, I want to thank our witnesses today and I 
especially want to thank our two home witnesses, Dr. Samuel 
Goward, who's the Emeritus Professor of Geography at the 
University of Maryland at College Park, and Dr. Antonio 
Busalacchi, Professor and Director of the Earth Systems Science 
Interdisciplinary Center, University of Maryland as well, and I 
am proud to say, you're great Marylanders and you come from 
great Maryland institutions, and welcome to today's panel.
    Thank you.
    [The prepared statement of Ms. Edwards follows:]

              Prepared Statement of Subcommittee on Space
                    Ranking Member Donna F. Edwards

    Good morning, and welcome to our distinguished panel of experts.
    I want to start by thanking the Chairmen Babin and Bridenstine for 
calling this hearing on ``Exploring Commercial Opportunities to 
Maximize Earth Science Investments.''
    Earth observations support a myriad of applications to meet 
critical national needs, whether they be related to national security, 
weather forecasting, agricultural production, land use management, 
energy production, or protecting human health. Earth observations also 
support the scientific research and modeling that we hope can someday 
provide us with a comprehensive understanding of the Earth and its 
response to natural and human-induced changes.
    The collection of Earth observations data has been enabled by 
sustained Federal investments-investments that I hope we will continue 
to sustain even in the midst of budgetary constraints.
    Those investments have enabled the development of a robust ``value- 
added'' industry dedicated to turning Earth observations data into 
usable information that can benefit broad sectors of our economy. Then 
too, federal investments in the underlying Earth observations 
technologies and systems have resulted in capabilities that have 
enabled a growing commercial remote sensing industry to emerge.
    So it makes sense to continuously look for new ways in which we can 
improve our ability to carry out Earth observations and maximize our 
Earth Science investments.Today, we will explore the extent to which 
NASA might be able to leverage potential public-private partnerships to 
carry out its Earth Science research and support the applied uses of 
that research.
    Truth be told, NASA has had prior experience in purchasing 
commercial Earth observation data. In the late 1990s and early 2000s, 
NASA initiated public-private partnerships for Earth science research 
including one for collecting ocean color data, called SeaWiFS. The 
results from those early projects demonstrated potential opportunities 
as well as challenges associated with such partnerships.
    The complexities associated with such arrangements were noted in a 
number of studies by the National Academies of Sciences. For example, 
at least one of those studies noted that the intersection of scientific 
and commercial interests in public-private partnerships can pose 
significant challenges in attempting to meet the disparate requirements 
of stakeholders.
    This is because scientists value the free and open exchange of 
scientific data; the precise calibration, validation, and verification 
of satellite data to ensure accuracy; and long-term stewardship of data 
for future research. However, that may not always be consistent with 
companies' business models.
    In addition, it is clear that intellectual property issues related 
to licensing will need to be addressed, as will issues related to data 
management, data continuity, and calibration if effective partnerships 
are to be sustained.
    So today, I am looking forward to hearing whether, in light of 
potential new commercial capabilities in Earth observation, there are 
productive ways that commercial systems can complement NASA's Earth 
observation data collection through the use of public-private 
partnerships.
    And if so, what mechanisms should NASA use to determine the 
circumstances under which public-private partnerships can effectively 
support the agency's Earth science research and applications, and how 
should those partnerships be evaluated?
    How can Congress ensure that potential public-private partnerships 
do not inadvertently restrict and constrain research in an effort to 
generate revenue for the companies?And, are enacted policies and 
authorities that enabled the advent of commercial remote sensing 
adequate to address the future needs of both the Federal government and 
the growing commercial remote sensing industry?
    Well, it is clear that there are many issues that need to be 
addressed, and we certainly are not going to be able to do any more 
than begin our examination of this important topic today. This can be a 
productive area for future hearings of the Committee, and I hope we 
will do continued oversight of this area.
    I would also note that the National Academies upcoming Decadal 
Survey for Earth Science and Applications is also likely to address a 
number of these same issues, and I look forward to hearing the results 
of the Survey when it is done.
    Finally, I would be remiss if I didn't note that we have long had 
an existing productive public-private partnership in Earth 
observations.
    The many contractors and suppliers who have built a formidable 
array of both civilian and national security Earth observations 
spacecraft and ground systems for NASA, NOAA, and other parts of the 
government are testimony to the long-standing commitment our government 
has had to making use of the skills and capabilities of the private 
sector. I have every confidence that that partnership will continue to 
be a productive one in the years to come.
    With that, I again want to thank our witnesses for being here 
today, and I look forward to your testimony.

    Chairman Babin. Thank you, Ms. Edwards.
    I now recognize the Chair of the Environment Subcommittee, 
the gentleman from Oklahoma, Mr. Bridenstine, for an opening 
statement.
    Mr. Bridenstine. Well, thank you, Chairman Babin, and thank 
you for hosting this hearing today. I'm very excited about the 
panel that's here. I'm very excited about the prospects before 
our country.
    In so many cases, what's happening in space, it is 
outpacing--the commercial sector is outpacing what the 
government has been able to do, and that's very exciting for us 
to figure out how do we take advantage of what commercial 
industry is doing.
    I sit on the Armed Services Committee as well. We've been 
dealing a lot with the space-based communication architecture. 
Commercial industry has been providing massive amounts of 
capacity for our war fighters all over the world, and of 
course, they've been doing it because we had a need and 
commercial industry was there to meet that need. They didn't 
launch satellites because the government asked them to; they 
launched satellites to make a profit and provide a return for 
their shareholders. At the end of the day, the Department of 
Defense said we need that capability, and what's happening now, 
because of commercial industry, we're getting higher throughput 
and more capacity than we've ever seen before for our space-
based communication architecture, a lot of it provided by 
commercial that we as a government can take advantage of. So 
that's an important, I think, analogy to what we're going to 
talk about today.
    I would also say that on the NOAA side, we have private 
companies that are preparing to launch satellites that can do 
things like GPS radio occultation and hyperspectral sensing, 
and of course, Dr. Pace, I read your testimony, and you talked 
about how these technologies, we've been considering 
commercializing these technologies for a very long time going 
back to the 1990s, which I did not know before reading your 
testimony, but now commercial industry is at a point where we 
as a government can take advantage of these technologies in 
ways where we haven't before and improve our ability to predict 
and forecast weather, which of course is very important to my 
district. I come from the 1st District of Oklahoma. This year 
I've already lost one constituent to a tornado. I've lost 
constituents in previous years, and I will lose constituents 
again next year. So taking advantage of these capabilities that 
have been advanced by the private sector in many ways is 
critically important to us as a government.
    I read your testimony, Mr. Schingler, about some of the 
ways that NASA is already partnering with the private sector. 
You talked about settlements as a service, and you talked about 
venture-class launch services through the Launch Services 
program, ways that we can get things into space more 
effectively and more cost-effective so that we can take 
advantage of the great things that are happening in commercial 
industry today.
    And of course, remote sensing, when you talk about the 
National Geospatial Intelligence Agency, they're taking 
advantage of the capabilities of the people that are sitting on 
this panel right now, and they're doing it because they know 
that the direction you are going, you're going much more 
rapidly than they can go themselves, and to understand that, 
the idea that we can get higher-resolution imagery that can 
provided mensurated coordinates, the idea that we can have more 
rapid revisit times, and even motion pictures, these are 
capabilities now that the commercial sector is providing that 
we as a government absolutely must figure out how to take 
advantage of. Your capabilities are impressive. We need to 
learn what you're able to do. We need to figure out as a 
country as we go forward, you know, there is a lot of talk 
about what is a global public good, what is a public good. 
There's a lot of talk about if it is a public good, how do you 
as a private company protect your proprietary data that you 
rely on to actually provide a return on investment. These are 
challenging issues that this panel and other panels are going 
to have to work through.
    I want to be really clear. When it comes to the Earth 
Sciences Division at NASA, the Science Mission directorate, 
this is an agency that has been very effective in doing 
important work on behalf of my constituents. They are teaching 
us more about the Earth so that we can protect our constituents 
from weather, and of course, the things that they have done 
have done just that.
    So Chairman Babin, thank you for having this hearing, and 
to our panelists, thank you for being here. I'm very much 
looking forward to this testimony.
    [The prepared statement of Mr. Bridenstine follows:]

           Prepared Statement of Subcommittee on Environment
                        Chairman Jim Bridenstine

    Chairman Bridenstine: Good morning. I thank the gentleman from 
Texas, Dr. Babin, for holding this hearing. Today we are discussing an 
issue that has been the subject of a number of hearings before the 
Environment Subcommittee this year: utilizing commercial solutions to 
satisfy government missions.
    My subcommittee has examined how the National Oceanic and 
Atmospheric Administration, NOAA, could apply commercial space-based 
data to improve weather forecasting. In similar fashion, today we will 
explore commercial opportunities to provide NASA with critical earth 
science data.
    As one of NASA's Science Mission Directorates, contributions from 
Earth Sciences have enhanced our understanding of the Earth. As one 
example, NASA Earth Science missions have improved our weather 
forecasts. I represent the State of Oklahoma - I know all too well the 
dangers posed by severe weather events, and the need to improve our 
capabilities of predicting storms to protect lives and property.
    At NOAA, the opportunity exists for the Agency to partner with the 
growing commercial weather industry. Such partnerships could greatly 
reduce the cost of operating large monolithic satellite systems, 
resulting in lower government spending, greater resiliency, and 
increased quality of forecasts.
    The Environment Subcommittee has heard from a number of private 
sector companies that have or will soon have the capabilities to 
provide data to NOAA, and want to partner with the Agency. In an 
encouraging sign, NOAA has begun to take notice of the emerging 
industry and has started taking the first steps to incorporating 
private space-based technologies.
    In September of this year, NOAA released a draft commercial space 
policy, designed to assist the acquisition of future commercial 
technologies. I look forward to NOAA releasing a final version that 
incorporates stakeholder concerns and feedback with the draft version. 
In encourage NOAA to make releasing the final Commercial Space Policy a 
top priority, along with releasing the necessary next steps such as 
NESDIS' accompanying procurement process guide. These documents are 
essential to forming the basis for how the private sector will interact 
with NOAA going forward.
    I am pleased to see this Committee taking the first steps to look 
at how NASA can follow a similar trajectory. It is my firm belief the 
government ought not do what the private sector can. Our ability to 
utilize commercial options will minimize government spending and aid 
mission directives. I am optimistic that a market will materialize for 
many different space-based technologies, as we have seen time and time 
again with the Department of Defense's requirements and are beginning 
to see with NOAA's needs. NASA ought to recognize this pattern and take 
a good hard look at utilizing these opportunities.
    To do this, NASA should take a proactive step to re-establish its 
commercial earth observation data buy program that has laid dormant for 
years, establish clear policy supporting and directing the acquisition 
of commercial data, establish the appropriate protocols to support 
commercial options, and begin meaningful dialogue with the private 
sector to assess the usefulness of public-private partnerships to meet 
its Earth observation data requirements.
    With NOAA, we've seen commercial space-based data companies waiting 
for the Agency to have a finalized framework in place so they can enter 
into agreements, raise capital, and launch satellites. However, in the 
case of NASA, there isn't a commercial earth observation data policy in 
place yet.
    I hope this hearing can be used to identify and determine the 
necessary first steps in that process.
    I thank the witnesses for being here today, and look forward to 
your testimonies. Thank you and I yield

    Chairman Babin. Thank you, Chairman Bridenstine. I 
appreciate that.
    I now recognize the Ranking Member of the Subcommittee on 
Environment, the gentlewoman from Oregon, Ms. Bonamici, for an 
opening statement.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you to all of our witnesses for being here today.
    Chairman Bridenstine and I have held a number of thoughtful 
and engaging hearings examining how NOAA can advance the role 
of the commercial sector in providing critical weather data to 
our National Weather Enterprise. We've discussed potential 
challenges and opportunities with numerous representatives of 
the weather community, and with Vice Admiral Manson Brown, the 
Assistant Secretary of Commerce for Environmental Observation 
and Prediction.
    The message has been consistent: there are great 
opportunities to engage the commercial sector in ways to 
supplant NOAA's observational mission--supplement NOAA's 
observational mission, but we must maintain the core policies, 
namely free and open access to data, that have allowed our 
scientific community and the American weather industry to drive 
innovation and economic growth. Our critical weather data must 
remain reliable and of the highest quality to protect the lives 
and livelihoods of millions around the world.
    In September, NOAA released its draft Commercial Space 
Policy, which outlines the policies and guidelines for how the 
agency will engage with the commercial sector. Most 
importantly, NOAA reaffirms its commitment to adhere to the 
policy and practice of full, open, and free data exchange as 
established by current laws and policies to maintain a system 
of reciprocity for global data. A system of reciprocity that 
means NOAA receives three times the amount of data it 
contributes--improving forecasts and reducing costs.
    I am pleased that NOAA appears to be on the right path to 
improve engagement with its commercial partners, and I'm 
looking forward to reviewing the final policy, which I 
understand will be released in the coming weeks. NOAA has an 
operational mission, and their data and information are 
considered public goods.
    NASA serves a research mission with different challenges 
and opportunities to engage the commercial sector, and as we've 
discussed today, there have been partnerships going on for 
quite a long time. So although there may be an opportunity for 
NASA to adapt some of NOAA's commercial policies, there are 
certainly important distinctions that require careful 
consideration.
    A common challenge both agencies face is ensuring that data 
purchased from commercial sources can be shared without 
significant restrictions. For the most part, the unrestricted 
access to weather data has been the foundation of the current 
billion-dollar commercial weather industry, an industry that is 
the best in the world. It's very likely that data purchased by 
NASA can be shared in a way to further stimulate future 
commercial ventures.
    At the same time, a gap in data continuity in NASA's Earth 
observations could have serious and detrimental effects on our 
research enterprise and our understanding of the climate. Both 
NOAA and NASA are well aware that existing partnerships with 
private companies carry risks, such as delays in production, 
launch failures, and cost overruns. For NOAA, any commercial 
policy that provides critical observational data for weather 
predictions must consider these factors, as well as the risk to 
the lives of millions of people across the country. NASA faces 
similar challenges when developing its path forward to engage 
its commercial partners, if not on the same scale.
    Mr. Chairman, again I am pleased that we are having this 
hearing, not only to recognize the positive direction NOAA is 
taking to engage commercial parties, but to identify common 
ground for NASA to adopt into its own commercial policies, and 
I look forward to hearing from our witnesses, and I know they 
have years of expertise among them. We're fortunate to have 
them here.
    And I yield back the balance of my time. Thank you, Mr. 
Chairman.
    [The prepared statement of Ms. Bonamici follows:]

            Prepared Statement of Subcommittee on Oversight
                Minority Ranking Member Suzanne Bonamici

    Thank you, Mr. Chairman, and thank you to our witnesses for being 
here today. Chairman Bridenstine and I have held a number of thoughtful 
and engaging hearings examining how NOAA can advance the role of the 
commercial sector in providing critical weather data to our national 
weather enterprise. We have discussed potential challenges and 
opportunities with numerous representatives of the weather community, 
and with Vice Admiral Manson Brown, the Assistant Secretary of Commerce 
for Environmental Observation and Prediction.
    The message has been consistent: there are great opportunities to 
engage the commercial sector in ways to supplement NOAA's observational 
mission, but we must maintain the core policies, namely free and open 
access to data, that have allowed our scientific community and the 
American weather industry to drive innovation and economic growth. Our 
critical weather data must remain reliable, and of the highest quality 
to protect the lives and livelihoods of millions around the world.
    In September, NOAA released its Draft Commercial Space Policy, 
which outlines the policies and guidelines for how the Agency will 
engage the commercial sector. Most importantly, NOAA reaffirms its 
commitment to adhere to the policy and practice of full, open, and free 
data exchange as established by current laws and policies to maintain a 
``system of reciprocity for global data.'' A system of reciprocity that 
means NOAA receives three times the amount of data it contributes--
improving forecasts and reducing costs.
    I am pleased that NOAA appears to be on the right path to improve 
engagement with its commercial partners, and I'm looking forward to 
reviewing the final policy, which I understand will be released in the 
coming weeks.
    NOAA has an operational mission, and their data and information are 
considered public goods. NASA serves a research mission with different 
challenges and opportunities to engage the commercial sector. So 
although there may be an opportunity for NASA to adopt some of NOAA's 
commercial policies, there are important distinctions that require 
careful consideration.
    A common challenge both agencies face is ensuring that data 
purchased from commercial sources can be shared without significant 
restrictions. For the most part, the unrestricted access to weather 
data has been the foundation of the current billion dollar commercial 
weather industry, an industry that is the best in the world. It is very 
likely that data purchased by NASA can be shared in a way to further 
stimulate future commercial ventures. At the same time, a gap in data 
continuity in NASA's Earth observations could have serious and 
detrimental effects on our research enterprise and our understanding of 
the climate.
    Both NOAA and NASA are well aware that existing partnerships with 
private companies carry risks, such as delays in production, launch 
failures, and cost overruns. For NOAA, any commercial policy that 
provides critical observational data for weather predictions must 
consider these factors, as well as the risk to the lives of millions of 
people across the country.NASA faces similar challenges when developing 
its path forward to engage its commercial partners, if not on the same 
scale.
    Mr. Chairman, again I am pleased that we are having this hearing, 
not only to recognize the positive direction NOAA is taking to engage 
commercial parties, but also to identify common ground for NASA to 
adopt into its own commercial policies. I look forward to hearing from 
our witnesses, and I yield back the balance of my time.

    Chairman Babin. Thank you, Ms. Bonamici.
    I'd like to now recognize the Ranking Member of the full 
Committee for a statement, the gentlelady from Texas.
    Ms. Johnson of Texas. Thank you very much.
    Good morning, and welcome to our distinguished panel of 
witnesses. I am pleased that we have an opportunity to discuss 
NASA's Earth Science and Applications program.
    As I have said on numerous occasions, NASA is a critical 
engine of discovery, science, innovation, and inspiration. 
Earth Science and applications research is a key agency 
responsibility.
    A 2005 study by the National Academies stated that 
``Decades of investments in research and the present Earth 
observing system have also improved health, enhanced national 
security, and spurred economic growth by supplying the business 
community with critical information.'' NASA's Earth Science and 
Applications program provides a broad array of benefits and 
applications across the public and private sectors. For 
example, after the Deepwater Horizon spill in 2010, NASA's 
project allowed response teams to track the movement of the oil 
into the coastal waterways, and this was critical in assisting 
in monitoring the impact and recovery of affected areas along 
the Gulf of Mexico.
    Our investment in Earth observations has also spawned 
successful international cooperation. The Global Precipitation 
Measurement, or the GPM mission, a cooperative effort by NASA 
and the Japanese Aerospace Exploration Agency, is advancing our 
understanding of Earth's water and energy cycles, improving the 
forecasting of extreme events that cause natural disasters, and 
extending current capabilities of using satellite precipitation 
information to directly benefit society. Maintaining and 
enhancing our Earth Science capabilities and investments in the 
years to come will require that we continuously look for new 
sources, be they international or from the private sector. 
Indeed, with growing numbers of American companies launching 
and operating space-based remote sensing small satellites, this 
may be an opportune time to assess the private sector's ability 
to complement NASA's Earth observation systems.
    I hope our distinguished panel will provide us with an 
objective assessment of both the opportunities and challenges 
associated with leveraging commercial offerings.
    With that, again I want to thank our witnesses for being 
here today, and I look forward to your testimony. I yield back.
    [The prepared statement of Ms. Johnson of Texas follows:]

                  Prepared Statement of Full Committee
                  Ranking Member Eddie Bernice Johnson

    Good morning, and welcome to our distinguished panel of experts. I 
am pleased that we have an opportunity to discuss NASA's Earth Science 
and Applications Program.
    As I have said on numerous occasions, NASA is a critical engine of 
discovery, science, innovation and inspiration. Earth Science and 
applications research is a key agency responsibility.
    A 2005 study by the National Academies stated that ``Decades of 
investments in research and the present Earth observing system have 
also improved health, enhanced national security, and spurred economic 
growth by supplying the business community with critical information.''
    NASA's Earth Science and Applications Program provides a broad 
array of benefits and applications across the public and private 
sectors. For example, after the Deepwater Horizon spill in 2010, a NASA 
project allowed response teams to track the movement of the oil into 
coastal waterways. This was critical in assisting in monitoring the 
impact and recovery of affected areas along the Gulf of Mexico.
    Our investment in Earth observations has also spawned successful 
international cooperation. The Global Precipitation Measurement (GPM) 
mission, a cooperative effort by NASA and the Japanese Aerospace 
Exploration Agency, is advancing our understanding of Earth's water and 
energy cycles, improving the forecasting of extreme events that cause 
natural disasters, and extending current capabilities of using 
satellite precipitation information to directly benefit society.
    Maintaining and enhancing our Earth Science capabilities and 
investments in the years to come will require that we continuously look 
for new sources, be they international or from the private sector. 
Indeed, with the growing number of American companies launching and 
operating space-based remote sensing small satellites, this may be an 
opportune time to assess the private sector's ability to complement 
NASA's Earth observation systems.
    I hope our distinguished panel will provide us with an objective 
assessment of both the opportunities and challenges associated with 
leveraging commercial offerings.
    With that, I again want to thank our witnesses for being here 
today, and I look forward to your testimony. With that, I yield back.

    Chairman Babin. Thank you, Mrs. Johnson.
    Now, let me introduce our witnesses. Our first witness 
today--I want to thank you all for being here. We really 
appreciate it. The first witness today is Dr. Pace. Testifying 
first is Dr. Scott Pace, Director of the Space Policy 
Institute, and Professor of the Practice of International 
Affairs at the George Washington University. Dr. Pace 
previously served as Associate Administrator for Program 
Analysis and Evaluation at NASA, as Assistant Director to Space 
and Aeronautics in the White House Office of Science and 
Technology Policy, and as Deputy Director and Acting Director 
of the Office of Space Commerce and the Office of the Deputy 
Secretary of the Department of Commerce. Dr. Pace earned his 
bachelor of science degree in physics from Harvey Mudd College, 
master's degrees in aeronautics and astronautics, and 
technology and policy from the Massachusetts Institute of 
Technology, and a doctorate in policy analysis from the RAND 
Graduate School.
    And Dr. Scott. Our second witness today is Dr. Walter 
Scott--Sir Walter Scott, we said a while ago--Founder, 
Executive Vice President and Chief Technical Officer for 
DigitalGlobe, the first company to receive a high-resolution 
commercial remote sensing license from the U.S. government. Dr. 
Scott has previous experience serving as the Assistant 
Associate Director of the Physics Department for the Lawrence 
Livermore National Laboratory and is President of Scott 
Consulting. Dr. Scott earned a bachelor of arts in applied 
mathematics from Harvard University and a doctorate and master 
of science and computer science from the University of 
California at Berkeley.
    Mr. Robbie Schingler is a Co-Founder and the President of 
PlanetLabs. Mr. Schingler has nine years of NASA experience 
under his belt helping to build a small spacecraft office at 
NASA Ames and serving as Capture Manager for the Transiting 
Exoplanet Survey Satellite, or T-E-S-S, TESS, that will launch 
in 2017. Robbie has also served as NASA's Open Government 
Representative to the White House and is Chief of Staff for the 
Office of the Chief Technologist at NASA. And Mr. Schingler has 
received his master of business administration from Georgetown 
University, his master of science in space studies from the 
International Space University, and his bachelor of science in 
engineering physics from Santa Clara University. Good to have 
you.
    Testifying fourth is Dr. Samuel Goward, Professor Emeritus 
at the Department of Geographical Sciences at the University of 
Maryland, College Park. Dr. Goward has a long history working 
with remote sensing beginning his career with NASA Goddard 
Institute for Space Studies. He then worked at NASA Goddard 
Space Flight Center where he helped build the University of 
Maryland geography department. Dr. Goward has served as Co-
Chair of the USGS National Landsat Archive Advisory Committee 
and is the recipient of the USGS Powell Award, the highest USGS 
award bestowed upon non-agency individuals. Dr. Goward earned 
his bachelor's and master's degrees in geography from Boston 
University and his Ph.D. in geography from Indiana State 
University. Thank you for being here.
    And Dr. Busalacchi. Our final witness today is Dr. Antonio 
Busalacchi, Director of the Earth Systems Science 
Interdisciplinary Center and Professor in the Department of 
Atmospheric and Oceanic Science at the University of Maryland. 
Dr. Busalacchi previously served as Chief of the NASA Goddard 
Laboratory for Hydrospheric Processes. Dr. Busalacchi also has 
experience as Chair of the Joint Scientific Committee that 
oversaw the World Climate Research program, and as the Chair of 
several National Academy of Science and National Research 
Council Boards and Committees relating to remote sensing. Dr. 
Busalacchi currently serves as Co-Chair of the National 
Research Council's Decadal Survey on Earth Science and 
Applications from Space. Dr. Busalacchi earned his bachelor's 
in physics, his master's in oceanography, and his Ph.D. in 
oceanography from Florida State University.
    I now recognize Dr. Pace for five minutes to present his 
testimony. Dr. Pace, thank you.

                  TESTIMONY OF DR. SCOTT PACE,

            DIRECTOR OF THE SPACE POLICY INSTITUTE,

                  GEORGE WASHINGTON UNIVERSITY

    Dr. Pace. Thank you, Mr. Chairman, and thank you for the 
opportunity, particularly in a joint fashion, to discuss the 
important topic of how commercial capabilities could be used to 
the benefit of the Nation's Earth science investments.
    I had the privilege of working on Title II of the 1992 Land 
Remote Sensing Act with Barry Beringer, the former Chief 
Counsel of the House Committee on Science. In the aftermath of 
the Cold War, at that time Title II reformed the U.S. 
commercial remote sensing license process, and removed many 
commercial regulatory barriers. This reform was successful 
beyond our somewhat modest expectations, leading to a more 
dynamic and information-driven global industry.
    The idea, as has been noted, of buying data from commercial 
sources for NASA, is indeed not new. In 1998, I testified to 
the House Subcommittee on Basic Research on using commercial 
data sources in NASA's Earth Science Enterprise. At the time, I 
discussed the need for NASA to consider the needs of other 
civil agencies in buying commercial data for Earth science 
needs. The idea was that NASA's capabilities and buying power 
could be leveraged to support other public missions. New 
applications of remote sensing data could be demonstrated to 
accelerate the growth of commercial applications.
    Looking back from now, the National Geospatial Intelligence 
Agency, rather than NASA, became the dominant government 
purchaser of the U.S. commercial remote sensing data. 
Information technologies also advanced rapidly so that more 
computer and sensing power could be packed into smaller 
packages, and our concerns over access to adequate 
radiofrequency spectrum for remote sensing also turned out to 
be somewhat correct. There is in fact increasing pressure on 
spectrum not so much for remote sensing bandwidth but from 
competing demands from mobile terrestrial communications.
    Rather than a few conventional satellites connected to 
centralized data management systems, we are seeing dozens of 
small satellites connecting to highly distributed networks in 
which even an iPad might be a ground station. And among other 
changes, sometimes the data files are becoming so massive that 
moving them to the user becomes less efficient than creating 
large data cubes that users can query remotely it's truly 
remarkable how much data's being put together.
    Today, NASA's Earth Science Division researchers can 
propose to purchase commercial data using contractor grant 
funds when the purchased information is required by or would 
substantially enhance the research activity. Now, of course, if 
similar data or information were available in the public 
domain, there would no point in making that purchase, and some 
commercial data may already be available under all government 
licenses such as those held by NGA, so there are some potential 
public-private partnership activities already going on.
    It's also not news to those here today that budget 
allocations have been flat or declining in real-dollar terms 
for NASA and NOAA. If NASA were to have the same buying power 
that it had in fiscal year 1992 when we did the Land Remote 
Sensing Act, it would have a budget of about $24 billion. At 
the same time, NASA is now being asked to support more Earth 
science activities than just those of the Decadal Survey. The 
success of past NASA missions has created ongoing demands for 
operational yet exquisite scientific data, and this makes it 
difficult for NASA to fund new starts for Decadal Survey 
priorities.
    For both agencies and companies, it's common to find that 
each wants to only pay, as we would say, the marginal cost of 
having a capability rather than the average cost of having a 
capability. If the dominant market demand is for a public good, 
then not unreasonably the burden rightly would fall on the 
government. If the dominant market demand is from private 
customers, then the burden should be borne by the private 
sector.
    In many cases of civil remote sensing, however, like 
Landsat, there's a roughly even balance of public and private 
sector demand, which makes a clear partnership and definitions 
much more difficult, not easier.
    Major elements, I would argue, of NASA's Earth Science 
program are likely to remain government-led due to the lack of 
commercial demand for specialized scientific data, that is, 
customers outside of the government. Commercial providers will 
likely not soon replace unique platforms such as those on the A 
train. On the other hand, where NASA needs can be met by 
commercial data sources, cooperation with other agencies such 
as NGA can increase the government's buying power, and as has 
been noted, NASA does have the authorities to do this more 
extensively.
    In acquiring commercial data, NASA should ensure that it 
gets sufficient rights so that data sets can be shared for 
scientific non-commercial purposes. It should ensure that as 
sufficient insight into how the data was generated such as peer 
review can independently assess conclusions based on those 
data, and I think some of the other witnesses will likely note 
that there are a variety of rights that can be bought, and it's 
not a one-size-fits-all situation.
    There should be procurement on-ramps to enable 
experimentation and large-scale innovation in parallel with 
current government systems and international partnerships. We 
can talk about some of those, for example, for Landsat. In the 
long term, it will be more risky to pursue only traditional 
acquisitions without a mixed portfolio that includes non-
traditional and commercial procurements.
    Finally, NASA should continue to be a strong domestic and 
international advocate of preventing interference with radio 
spectrum upon which all remote sensing relies. Spectrum 
protection is and will continue to be challenging due to 
commercial terrestrial communication demands for more spectrum 
in the years ahead.
    Thank you for your attention and I look forward to any 
questions.
    [The prepared statement of Dr. Pace follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
     
    Chairman Babin. Yes, sir. Thank you, Dr. Pace. I appreciate 
it.
    I now recognize Dr. Scott for five minutes to present his 
testimony. Dr. Scott, thank you.

                 TESTIMONY OF DR. WALTER SCOTT,

              FOUNDER AND CHIEF TECHNICAL OFFICER,

                          DIGITALGLOBE

    Dr. Scott. Thank you, Mr. Chairman.
    I'd like to acknowledge that 23 years ago, with its support 
for the 1992 Land Remote Sensing Policy Act, this Committee set 
in place the framework that enabled commercial space 
observation of the Earth to be born and to set the stage for 
what's turned out to be a very successful public-private 
partnership.
    Over 23 years ago, when I started DigitalGlobe, the Cold 
War had ended, and the global transparency that had been 
provided by satellite reconnaissance had contributed to keeping 
the Cold War cold because it allowed nations to act on the 
basis of facts, not on the basis of fears. Along the way, the 
Landsat program introduced the world to satellite imagery in 
1972, and this led me to wonder, couldn't those benefits be 
more widespread? Imagine if there were fewer instances of 
hunger, thirst, strife, sickness around the world. Wouldn't 
that lead to increased global stability and a greater quality 
of life for mankind?
    So now roll the clock forward. The satellite--high-
resolution satellite imagery industry was successfully 
commercialized and brought to market in 2000 supporting 
customers that include a wide range--energy, financial 
services, U.S. allies, U.S. government, online mapping. If 
you've looked at satellite imagery on your mobile devices, it's 
probably DigitalGlobe's. And in many ways, satellite imagery--
the satellite imagery industry represents an ideal model for 
public-private partnerships.
    In our case specifically, we've been a trusted partner of 
the U.S. government for more than a decade, most recently with 
NGA's Enhanced View SLA, which is a ten-year firm fixed-price 
contract where the government pays for the products and 
services that it receives but not for the infrastructure, the 
overhead, the workforce, or any of the associated costs of a 
traditional government acquisition. And today we provide NGA 
with over 90 percent of their foundational Earth imagery 
requirements. They get first priority tasking to our high-
resolution unclassified imagery, and it can be shared broadly 
to support operational mission planning, disaster response, 
recovery, and situational awareness.
    So what are some of the key lessons learned from that 
public-private partnership? The first one is to balance the 
needs of the U.S. government with a commercial partner. We make 
our money by collecting imagery and then licensing it multiple 
times to different customers for use in different ways. As 
such, if a customer is allowed to widely and freely disseminate 
the totality of our products, it undermines our ability to 
deliver commercial value, and so there are models in which we 
could make all of a certain type of imagery available for broad 
sharing as Landsat is today but at a higher cost to the 
government to offset the loss of the commercial opportunity, 
and the government would need to make that tradeoff.
    The second key point is, it's critical to have a 
predictable regulatory regime that's designed to foster 
innovation. This is extremely important to us, and I'd like to 
thank the recent support by this Committee on the SPACE Act 
that was passed last night, specifically Chairman Bridenstine 
and Congressman Perlmutter--thank you very much--who championed 
the remote sensing language that I believe is a needed first 
step to regulatory reform. If you think about it, the current 
regulations in our industry were written at a time when very 
few players outside the government were capable of remote 
sensing, and the world is obviously very different now where 
there are billions of people who use the internet to access 
satellite imagery, and there are hundreds of remote sensing 
satellites being launched by dozens of nations.
    The United States played a critical role as an 
international leader in the space industry, and to maintain and 
extend our leadership, we need a regulatory framework that 
encourages that leadership and staying well ahead of and not 
simply achieving parity with foreign competition.
    So in closing, I want to thank you for the opportunity to 
describe our unique public-private partnership with NGA. It's 
been our honor to work with NGA, which is unwavering in its 
efforts to secure our Nation, and we share a commitment to that 
service and it's why so many of our employees have chosen to 
spend their careers at DigitalGlobe. There's no higher honor 
than serving those who serve our country, and that's how we 
live up to our purpose of seeing a better world.
    Thank you.
    [The prepared statement of Dr. Scott follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    Chairman Babin. Thank you, Dr. Scott.
    I now recognize Mr. Schingler for five minutes to present 
his testimony.

               TESTIMONY OF MR. ROBBIE SCHINGLER,

              CO-FOUNDER AND PRESIDENT, PLANETLABS

    Mr. Schingler. Thank you, Chairman, and thank you very much 
to the Committee for inviting us here today and having this 
important conversation.
    I would like to offer you my thoughts on how a changing 
landscape--and how the landscape is changing in commercial 
space activities. This suggests that NASA and other government 
agencies should rethink the nature of their relationship with 
the private sector.
    The concept of public-private partnerships needs to expand 
to be inclusive of the full portfolio of activities where 
government and private sector efforts overlap and intermingle. 
A core objective of his suite of activities should be to 
encourage U.S. entrepreneurial ingenuity at this certainly is 
going to be a strong source of U.S. leadership in space in the 
21st century.
    I will speak specifically to opportunities in the realm of 
Earth observation to illustrate this larger concept, but this 
same framework is applicable to other challenges and 
opportunities that we face in space today.
    Over the past several decades, in parallel to the 
pioneering work being done at NASA, a new world of sensor 
technology was emerging driven by the massive improvement in 
technologies from the commercial sector including consumer 
electronics, industries, biotechnology industries and the 
internet. What this means is the capacity is to have highly 
capable, sensitive, long-lived, low-cost components fielded in 
technology platforms in any location. We see this in our 
pockets. We see this in drones. We see this in our homes, in 
our cars. It's a global sensor revolution that's giving us near 
real-time data about the world around us.
    So my cofounders and I, inspired to think big at NASA, 
wanted to bring the sensor revolution to space. So we formed 
PlanetLabs. Our first goal was to leverage the utility of 
having a distributed sensor network in space, and that is to 
image the world Earth every day, and we call that mission one, 
and the purpose of doing that is to make global change visible, 
accessible, and actionable.
    To accomplish our goal of whole Earth everyday imaging, 
we're placing more than 100 satellites into a sun-synchronous 
orbit. Today we've launched a total of 101 test satellites over 
the last 2-1/2 years, and we are currently operating nearly 
four dozen spacecraft in two different orbits. Today we operate 
the world's largest Earth observation constellation, and given 
our pace of development and learning and our planned launch 
manifests over the next 12 months, we anticipate having the 
global daily monitoring capability from space operating this 
time next year.
    PlanetLabs is one of several companies leading a new 
revolution in Earth imaging. Companies with a similar 
perspective on innovating quickly with new technology, pursuing 
a meaningful mission, and disrupting markets and industry 
sectors, companies that are privately funded looking for 
commercial market return first before approaching the 
government. These companies are bringing higher-resolution 
imaging, higher revisit Earth imaging, video from space, 
commercial weather data, and other capabilities to reality. 
Much of these technologies' industrial capability that is being 
developed lend itself to other missions in space, especially in 
areas where disaggregation and distributed sensory networks can 
be best utilized.
    I am compelled to note that at Planet Labs, we consider 
ourselves to be in partnership with the civil government Earth 
observation community every day. For example, we use Landsat 8 
data for many critical purposes. We use MODIS data, cloud data 
from NOAA systems. NASA and NOAA provide a critical foundation 
for our activities, and without their publically available 
data, we would be significantly challenged to accomplish our 
goals. Moreover, the longitudinal history and reliability of 
these systems are key for industry to prosper and for 
scientists to discover greater understanding or our planet.
    Since the beginning of the space era in the middle of the 
previous century, space activities have had two extremely 
strong pillars: the national security space domain and the 
civil space domain led by NASA. The private sector has evolved 
to a point where it's certainly a third pillar into itself. 
Therefore, it is time to rethink a new structure for government 
contractor relationship with industry. A new industry-
government relationship considers several factors holistically. 
These factors include government programs that foster 
innovation by creating white space for new concepts, 
creativity, and exploration that could led to new capabilities, 
products and services by the outcome, not the process, 
government programs that utilize kinds of agile aerospace 
methods practiced at planet and elsewhere to more rapidly 
advance their internal technology projects and train their 
professionals for multiple methods of program management, 
government agencies who can act as consumers in the market, 
able to recognize that they are one of many customers in a 
marketplace of new data and services, data buys for research 
and development and validation, and become a solid second 
commercial customer of a commercial product, and finally, a 
regulatory environment that is responsive and supportive to the 
innovations that come from the private sector, a good 
regulatory environment that has insight, oversight and 
foresight to foster commercial innovation.
    Thank you very much. I have much more detail in the long-
form testimony, and I look forward to answering your questions 
today.
    [The prepared statement of Mr. Schingler follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you, Mr. Schingler.
    I now recognize Dr. Goward for five minutes to present his 
testimony.

                TESTIMONY OF DR. SAMUEL GOWARD,

                EMERITUS PROFESSOR OF GEOGRAPHY,

             UNIVERSITY OF MARYLAND AT COLLEGE PARK

    Dr. Goward. Thank you, Mr. Chairman.
    I guess that I'm here representing the past and what we 
have or have not learned from it. So I think it's important to 
revisit Landsat, who I variously referred to as the albatross, 
as in the Lost Mariner, or the Rodney Dangerfield of land 
remote sensing, because it has suffered many, many tragedies 
over the years. The first started when the mission was first 
described and developed by an NRC panel in 1967 out at Woods 
Hole where the discussion of Earth observations led to the 
decision that land remote sensing would be most likely to 
commercialize. Unfortunately, that developed from a tradition 
of aerial photography, which preceded by a century this 
discussion of Landsat, and actually missed the point of the 
innovators and visionaries who first conceived of the Landsat 
mission, which was to be a global monitoring system, not a 
picture acquisition system, and in fact, that's been missed 
many times but actually the first Landsat mission was designed 
to have two satellites to demonstrate how you would develop an 
operational constellation to monitor Planet Earth as my 
colleague was just describing. Now, that was back in the 1970s 
when these designs were being developed, but it's never been 
captured as a part of the Landsat mission, and in fact, we've 
degraded since then, at least from my point of view.
    It's important to recognize that because of the sense that 
Landsat was most likely to be commercialized as a substitute 
for aerial photography, it has suffered at least two examples 
of commercialization which have failed, the first of which was 
in the 1980s when the executive and Congress moved Landsat to 
NOAA and then commercialized the system with EOSAT. That was an 
experience that all of us involved in the science community 
still live in fear of today, and in fact, it's one of the 
reasons when you find scientists hesitating when we talk about 
private-public partnerships that the experience with EOSAT is 
clear still in everybody's minds.
    Now, there are many lessons learned that I'm not going to 
go over today about what happened in that case, and we should 
never forget those lessons learned as we look to the future 
because, honestly, on the other side, I had been involved in 
the science data by convening a science panel to select the 
vendors that were chosen to provide products to NASA for Earth 
observations in the late 1990s, and we actually had a 
remarkable series of successes including the space imaging 
IKONOS data and we would have used DigitalGlobe and did very 
late in the process but there were launch issues that occurred 
prior to that.
    So the second time that Landsat suffered a data buy issue 
is in the acquisition of Landsat 8, and under that process, the 
first process that was pursued was a data buy in which both 
Resource 21 and DigitalGlobe were involved. DigitalGlobe 
decided, probably for clear reasons, that they were getting out 
of that game before the bidding was selected, and Resource 21 
was not selected because there was simply not cost savings 
involved to the government with the bid that they provided. But 
that's the second commercial effort for the Landsat mission, 
and I can tell you both of those efforts have put us behind in 
a science development of the value of this mission to observe 
the Earth as a result of those activities. So when you talk to 
the science community, you're going to get a very funny 
reaction about private-public partnerships, which is not 
necessary a bad thing but you have to understand this history 
colors the view of the science community in the use of this 
approach to data acquisition.
    However, it's important to also recognize that when Landsat 
came back to the government in the 1990s, that data buy became 
no longer an issue but the value of the data for science 
activity became very clear, and again, I won't go through the 
detail. I'm out of my time, so I'll stop here. Thank you.
    [The prepared statement of Dr. Goward follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   

    
    Chairman Babin. Thank you, Dr. Goward.
    And now I would like to recognize Dr. Busalacchi for your 
testimony as well for five minutes.

              TESTIMONY OF DR. ANTONIO BUSALACCHI,

              PROFESSOR AND DIRECTOR OF THE EARTH

            SYSTEM SCIENCE INTERDISCIPLINARY CENTER,

                     UNIVERSITY OF MARYLAND

    Dr. Busalacchi. Good morning, Chairman Babin, Chairman 
Bridenstine, Ranking Members Edwards and Bonamici, and members 
of the Subcommittee.
    Prior to my coming to the University of Maryland 15 years 
ago, I was a civil servant for 18 years at the NASA Goddard 
Space Flight Center. While I was a lab chief at Goddard, I 
served as a source selection official for the SeaWiFS Ocean 
Color Data Buy from Orbital Sciences Corporation that is 
directly relevant to this hearing.
    Presently, I also serve as the Co-Chair of the Decadal 
Survey for Earth Sciences and Applications from Space being 
carried out by the National Academies of Science, Engineering, 
and Medicine. The report from this study will provide the 
sponsors--NASA, NOAA and the USGS--with consensus 
recommendations from the environmental monitoring and Earth 
science and application communities for an integrated and 
sustainable approach to the conduct of the U.S. government's 
civilian space-based Earth system science programs.
    Before continuing with my testimony, I should note, though, 
that I'm speaking in my own behalf today. Nothing in my 
testimony should be construed as indicating anything about what 
the Decadal Survey Committee may recommend when a report is 
published in the summer of 2017.
    If there's one take-home message from my testimony this 
morning, it is the need to establish a series of best practices 
to guide future public-private partnerships for Earth remote 
sensing, drawing on the lessons learned from the past. So in 
this regard, and based on my own experience, the following are 
characteristics of a successful partnership between NASA and a 
private entity.
    Firstly, the need to establish an appropriate insight/
oversight model with a commercial partner. What worked well for 
the SeaWiFS Science data buy was one where NASA maintained 
insight, but not oversight, of the project. Next, to ensure the 
highest quality of the scientific data, NASA needs to have 
access to the algorithms and instrument characterization, 
access to, and ability to re-use the data, and establishment of 
an appropriate data archive. Turning data into information of 
value to both the commercial entity and to the science 
community now and in the future requires detailed knowledge of 
how the raw data are generated, the algorithms that are used to 
process the data and generate higher level data products, often 
combined with data from other sensors and platforms, and 
control how the data are archived.
    Another important aspect is the need for science teams as 
part of a plan to maximize the utility of the data. The 
establishment of a science team early in the development of a 
NASA Earth observation mission is a familiar and well-grounded 
recommendation. Once established, early science efforts, via 
development of a prototype system, or synthetic data sets, can 
contribute directly to engineering and system analyses. It can 
also optimize algorithms through competition. Such teams 
provide a conduit to the user community, and also provide 
timely engagement of the research community, which would 
rapidly expand the user base.
    With respect to a successful public-private partnership, 
technical readiness is an important measure of what observation 
methodology may be ripe for transition. In the case of Earth 
imaging, as we've heard this morning, there's over six decades' 
worth of heritage on the design of such sensors. This has 
provided the opportunity for significant core competencies to 
developed, as we've heard, in the private sector, thus enabling 
public-private partnerships. Those technologies that are mature 
are likely the ones that may be most amenable to a public-
private partnership. Conversely, the more novel the technology, 
or newer the data stream or observation, the greater the 
requirement for government involvement in order to draw on a 
wider base of expertise for sensor characterization, 
calibration, validation, science data processing, and re-
processing.
    Lastly, while obvious, it must be stated that the 
commercial demand and market for the data is key to cost 
savings to the government. If the government is the sole user 
of the data, there's little incentive for a public-private 
partnership. In the example of SeaWiFS, the cost to the 
government was reduced by Orbital Science's intent to sell the 
real time data to the commercial fishing industry. Transition 
across basic research, to applied research, to development of 
products and applications is not fast, and it's not easy. 
However, the extent to which this can be accelerated in support 
of a range of societal benefit areas, be they agriculture, 
transportation, fishing, land use, et cetera, will determine 
the non-governmental demand for the data, and potential cost 
savings to the government.
    In closing, public-private partnerships offer an 
alternative and potentially less costly method to acquire Earth 
observations. However, with SeaWiFS as a guide, a successful 
public-private partnership may be realized only in limited 
circumstances, and only with the careful attention to the 
particular needs of both profit making entities and the science 
community. Thank you for your attention. I look forward to the 
questions.
    [The prepared statement of Dr. Busalacchi follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
      
    Chairman Babin. Thank you, Dr. Busalacchi. I thank all of 
the witnesses for your testimony, and the Chair recognizes 
himself for five minutes.
    Dr. Scott Pace, traditionally NASA's Earth Science Division 
focused on one-off research satellites to demonstrate 
technology in science. Recently, however, NASA was given 
responsibility for the Sustainable Land Imagining Program, and 
a number of NOAA's long term satellite observational 
requirements, including TSIS-1, the Ozone Mapping and Profile 
Suite, OMPS, and the JPSS-2 radiation budget instrument, and 
future ocean altimetry missions. How, if at all, do these new 
responsibilities represent a unique--represent unique 
opportunities for public-private partnerships?
    Dr. Pace. Okay. Thank you, Mr. Chairman. Each one of these 
missions is somewhat different, and, as my colleague was saying 
earlier, need to pay attention to the particulars of each case, 
in particular finding, you know, non-government or non-NASA 
agencies who want the data. In the case of Landsat, at the risk 
of continuing the Rodney Dangerfield analogy, I think that the 
technical risks in providing that data tend to be the most 
well-bounded, and there are multiple non-NASA users. And that, 
given the right incentives, commercial entities could fund 
development tests and operation of those systems.
    However, that option, I think, has been largely precluded 
by the intent of Congress, that NASA would develop the next 
Landsat satellite pretty much as a repeat of earlier 
satellites. And I would simply look at the NASA Appropriations 
Conference report for fiscal year 2015, which really precludes 
any sort of out of the box approaches to data collection. 
That's why I talked about the need for some sort of on ramp, or 
parallel activity, maybe revising the science data buy, or 
maybe looking at some more partnerships with NGA in each of 
these areas, and to not pre-judge what the outcome would be, 
but maybe have a competition through NGA, or through the SDB, 
and see what you get. I would suspect that the Landsat option 
would come in pretty attractively, but then there would have to 
be a robust internal discussion in the Congress as whether or 
not they wanted to have that on-ramp, or really--rather, they 
wanted to continue with the current appropriations language.
    Chairman Babin. Thank you, Dr. Pace. And this next question 
is directed to Dr. Scott and Mr. Schingler. According to the 
2007 Earth Science Decadal Survey, an emerging source of data 
is the commercial sector. In the past, a program of Earth 
observations was associated almost exclusively with government 
managed or government sponsored projects. Today, commercial 
sources of Earth information are rapidly increasing in 
availability and scope. Commercial satellite systems are now 
reliable sources of high resolution Earth imagery, and 
commercial remote sensing companies have greatly expanded their 
offerings. In your opinion, where does the commercial remote 
sensing sector stand today, and how can the commercial sector 
fulfill civil government Earth observation needs? Dr. Scott, 
you first, and then Mr. Schingler.
    Dr. Scott. So I'd say--I'll break the answer down into two 
parts. The first part is to leverage those data sources that 
already exist, bearing in mind not to break the business model. 
So we've talked a fair bit about where sharing of data can be 
bounded by licensing. So, for example, sharing of data to the 
research community, but perhaps not in a way that undermines 
the commercial benefit broadly. We have such an agreement in 
place with NGA, where NGA has quite a degree of ability to 
share within the government, with coalition partners, with 
allies, but that does not undermine our ability to serve our 
other commercial customers with different licensing models. So 
it's possible for those to coexist.
    Then I think the second part is to leverage the commercial 
sector to create data sources that might not yet exist, but 
which could be created cost-effectively, because the commercial 
sector is able to acquire systems and operate them in a manner 
that is typically more efficient than traditional government 
acquisition. And the best situation is certainly one where the 
commercial provider, if you will, lives in the house that it 
builds, where it leverages the same system to support 
government and non-government needs, and so the totality of its 
business is based on the success or failure of that system. So 
the incentives of the commercial provider are aligned with the 
government.
    Chairman Babin. Thank you, Dr. Scott. Mr. Schingler?
    Mr. Schingler. The decadal survey for Earth science was a 
great step forward, because it was actually the first time that 
it was done by the National Academies and Earth Science, so it 
really did provide a prioritized list of the data that needed 
to be collected, from a scientific basis.
    Within that, they had a call for venture class missions, 
and--which, in my opinion, is one of the greater things that we 
could do in order to lower barrier of entry for new scientists 
to come in to understand our planet. However, the sensors were 
not there, the industrial base was not there in order to reach 
a price point at the time that the National Academies report 
was released. Today it's very different. You could actually see 
that launch access to space is still a major barrier, and part 
of NASA launch services, together with SMD, is helping to fund 
$17 million for three new commercial nano launch capabilities 
and access to space. It's a really, really good step forward.
    But when you combine those things together, you could think 
about a portfolio of different scientific activities, some of 
which bring about a rapid amount of capability, taking more 
risk, but at a much decreased cost. And then with that, that 
can then help smooth our future critical path into the future. 
Thanks.
    Chairman Babin. Thank you, Mr. Schingler. Now I'd like to 
recognize the gentlelady from Maryland--Ms. Bonamici, okay. I'm 
sorry.
    Ms. Bonamici. Thank you, Mr. Chairman. Thank you, 
witnesses, for your testimony. Dr. Pace, you said in your 
testimony that in acquiring commercial data, NASA should ensure 
it gets sufficient rights so that data sets should be--can be 
shared for scientific, non-commercial purposes. It should also 
ensure that it has sufficient insight into how the data were 
generated so that scientific peer review can independently 
assess conclusions based on those data. So Dr. Goward brought 
us some lessons from history. So how is that accomplished? Is 
that through regulation, or through really good negotiation? 
How does NASA ensure that it gets those rights, and that it has 
that insight?
    Dr. Pace. I think it has been described, actually, by Dr. 
Scott that there are a wide variety of rights that you can buy. 
In some ways, the idea of purchasing data is kind of a 
misnomer. What you--you really don't buy a computer program. 
You buy a license to use that computer program. So the question 
is, what's the negotiation over the bundle of rights you can 
get? An NGA, of course, has a way of negotiating certain 
rights. So it becomes a competitive aspect, and there's a cost 
tradeoff. It becomes part of the make or buy decision for the 
government. So the government goes in and says, I want to 
acquire certain kinds of information, data, to do my public 
mission. I can decide to build a government satellite to do 
that at a certain amount of cost, sometimes more than what the 
private sector would do, but then I have more flexibility down 
range. Or I can decide to buy a bundle of licensing rights to 
go get the same sort of thing. And this is where having a large 
buyer, like NGA, can be leveraged, you know, for the benefit of 
the government.
    So I think it's fundamentally a business analysis, make or 
buy, and then fundamentally it's a legal negotiation and a 
competitive process, and that companies should come in and be 
prepared to bid a range of activities. Now, if it's something 
like a decadal science priority, I would say that there be a 
high, high priority on having very deep metadata that you get 
because you're trying to do something at a very much cutting 
edge. There may be no commercial counterpart for that decadal 
science priority. And so then the question of build or buy 
becomes really of can the government do it more efficiently, or 
can a private sector party do it efficiently?
    Ms. Bonamici. Thank you very much. Dr. Busalacchi, for a 
public-private partnership that supports NASA's requirements 
for basic and applied research, how does that compare with a 
public-private partnership that could support NOAA's 
operational weather mission? When we're considering evaluating 
those public-private partnerships, what are the differences, 
and how would we evaluate those?
    Dr. Busalacchi. Thank you very much. First, there's a clear 
difference between NASA research and NOAA operations. They're 
often seen as parallel, but there are significant differences. 
Let me draw on the NOAA operations example. In order to support 
numerical--operational numerical weather prediction, the 
demands of providing a forecast on time scales from minutes, to 
a day, or a couple days into the future, require those 
observations to be taken down, adjusted into the model, and 
those bits can actually then fall on the floor after they're 
used for supporting the numerical weather prediction.
    Now, we've learned that those data do have value for other 
applications. However, in the case of NASA research, when 
you're looking at time scales from days, to weeks, months, and 
years, you're very concerned about the stability, the 
continuity, insight to the algorithms that you may not have 
because of proprietary reasons when dealing with the private 
sector. So there's a difference in time scale, and a clear 
difference in the need for stable, continuous calibrated and 
validated records on the research side.
    Ms. Bonamici. And that leads me to my next question, for 
Mr. Schingler and Mr.--and Dr. Scott. Many Earth science 
objectives require long, stable, uninterrupted time series 
measurements. Can the commercial market support such a long 
term operation? With NOAA weather data, for example, it's 
important to have open, publicly accessible data so our--other 
countries will share their data with us, and the American 
public has access as well. So what happens if the U.S. buys 
data, and then can't share it? If NASA contracts out its Earth 
science work with a predictable, reliable funding stream, would 
the public-private sector accommodate requirements to make that 
data public?
    Mr. Schingler. So the commercial community can absolutely 
help to support time series measurements in a reliable and 
predictable way in no other case that our commercial customers 
demand it as well. So that is absolutely something that the 
community can do. When it comes to NOAA, and when it comes to 
the license around publicly available data, I think that needs 
to be incorporated into the business models of the companies.
    So perhaps you could use an example of what we know in the 
aerospace community with GPS and selective availability. So 
there could be a downgraded version that is available to the 
U.S. Government that is bought, then made as open data, with 
then higher fidelity data for some of their commercial 
customers. So that is something that you can then coexist, and 
come up with a sustainable business model around, while you 
still actually create a public good, and provide that service 
to the government.
    Ms. Bonamici. Dr. Scott?
    Dr. Scott. Well, in terms of data continuity, we've been 
providing data since 1999, which, relative to the Landsat 
program, doesn't go back to 1972, but for the commercial remote 
sensing industry, is certainly the longest uninterrupted record 
of continuous observation. I'll also mention, just as an aside, 
the commercial sector has put quite a degree of effort into a 
high degree of fidelity and calibration of that data, 
leveraging, in fact, a lot of work that NASA had done over the 
Landsat program.
    In terms of open availability, I think open is--it feels 
very binary. It feels like it's either completely open, or it's 
not open at all. And, as Dr. Pace was saying, it's very analog. 
There's a wide range of gradation. I'll use for--DigitalGlobe 
as an example. We make data available to web portals, Google, 
Apple, and others, that you can download on your mobile device. 
You'd say, well, that's open. How does that not undermine the 
commercial market for DigitalGlobe's data? Because there are 
certain rights and certain limitations on the data that's 
available that mean that it's possible for us to, in a very 
granular way, enable data for different customers with 
different rights to meet their specific needs.
    So I want you to imagine, for example, making data 
available that had rights for sharing for research purposes, 
but not for commercial purposes. Or rights that were available 
for sharing with other nations, but not for sharing for 
commercial purposes. So I----
    Ms. Bonamici. Thank you very much. My time has expired. 
Thank you.
    Dr. Scott. Thank you.
    Ms. Bonamici. I yield back. Thank you, Mr. Chairman.
    Chairman Babin. Yes, ma'am, thank you. I now recognize the 
gentleman from Oklahoma, Chairman Bridenstine.
    Mr. Bridenstine. Thank you, Chairman Babin. I'd like to 
thank all of our panelists for being here. I was hoping maybe 
next time we could get a few more degrees on the panel. With 
all these doctors, for a second I thought I was in a hospital, 
but I'm glad I'm not in a hospital. So it's great to see all of 
you. Dr. Scott, I wanted to, number one, thank you for the 
service you've already given to this great country. You took 
great risk upon yourself, and created something that brought us 
to where we are today, which is why we're even having this 
discussion, so thank you for your service, and all you've 
already done.
    Dr. Goward, I wanted to address your comments earlier. I 
read your testimony, and I had a different takeaway from what I 
just heard. And I wanted to see if maybe I could have you maybe 
enlighten us a little more about what your thoughts are going 
forward. One of the things I read is--it says today, with the 
maturing of new sensor and satellite technologies, the 
opportunity exists to fly at least four Landsat observatories 
at the same total cost as a single satellite which uses the 
traditional technology of Landsat-8. So when you talk about 
these new technologies, it sound--your testimony that I read 
sounded a lot like Mr. Schingler. Can you share with us your 
thoughts? Do you believe we can move towards a Landsat kind of 
commercial capability? Can you turn on your microphone, please?
    Dr. Goward. Thank you. I'm not sure it would be commercial. 
I mean, that's really outside of my purview in many ways. But, 
my former student and colleague, Darryl Williams, and I put 
together an EV-2 proposal through Global Science and 
Technology, and in that we worked with Surry Satellite, and 
it's a U.S. based company at this time. And we did a proposal 
which showed that, for about $130 million, we could build a 
prototype system. Wouldn't be fully complimentary with Landsat, 
but sufficiently to supplement and compliment Landsat. That's 
substantially less than what this last--Landsat-8 has cost us. 
GST then went on to do further work with Surry. In a fully 
complementary Landsat mission, was able to demonstrate that, 
for about a quarter of a million dollars--quarter-million--$250 
million they could build a fully complementary system.
    It's my view that we should give this a try now, and get 
that technology out on the table, because, again, from our 
scientific experience, I don't believe that the commercial 
potential of the Landsat mission will be realized until we get, 
as my colleague to the right mentioned, daily repeat coverage.
    Mr. Bridenstine. Right. Okay.
    Dr. Goward. The land dynamics just happen too fast, and you 
don't see it every 16 days, when clouds block you at least 50 
percent of the time.
    Mr. Bridenstine. Okay. I'm running out of time here. I 
wanted to move to Dr. Pace. You mentioned in your testimony 
that the Earth sciences missions have--the demands have grown, 
and the requirements have grown, and yet there are 
opportunities where we can share the cost because there are 
non-NASA customers, potentially. And you mentioned Landsat is 
one of those places where we could do commercialization, but 
then you mentioned that it was precluded by Congress. I'm very 
interested in this. What did Congress--why did Congress 
preclude this?
    Dr. Pace. Well, my understanding is, if I read the NASA 
Appropriations Conference report, it states, ``The 
Committee''--``Conference does not concur with various 
Administration efforts to develop alternative out of the box 
approaches to this data collection''--referring to Landsat--
``whether they are dependent on commercial or international 
partners.'' And so essentially this said, build another Landsat 
satellite similar to what you've already been building. And I 
have a sense of deja vu with this because I was the guy at the 
Commerce Department who was told to get Landsat out of the 
Commerce Department at that time, so I wasn't very popular with 
my other agency colleagues.
    One of the things that we looked at were alternatives for 
LightSAT or SmallSAT versions of Landsat in 1992. We were 
taking advantage of some SDI technologies that had come out of 
Livermore Laboratories and other places, and so there were 
theoretical designs, and they were all just that, theoretical, 
but for LightSAT versions of Landsat that Dr. Goward was also 
talking about. And so it strikes me that today, given the 
greater design maturity and experience we have with small 
satellites, that we should go back and be looking at more 
innovative ways of doing things. The reason we wanted to look 
at SmallSATs back then is we felt that cost growth would be a 
problem for any agency that took over Landsat. And so that's 
why I said in my testimony that if we simply continue with only 
the traditional practices, that is actually going to be more 
risky than having some innovative options in the portfolio that 
could lower costs in the longer term.
    Mr. Bridenstine. Okay. That--and I'm out of time, Mr. 
Chairman, but as far as the appropriations, I guess, Conference 
report, that language is unfortunate. I don't think that 
necessarily reflects the view of a lot of people that serve on 
this Committee, on both sides of the aisle. So I need to delve 
down into that a little bit more. Maybe, Mr. Chairman, if we 
could do a second round, I'd appreciate that. Over to you. 
Thank you.
    Chairman Babin. Thank you, Mr. Chairman. I'd like to now 
recognize the gentleman from Virginia, Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chair. And I'd be happy to defer 
to the Ranking Member from Maryland, if she would prefer that.
    Ms. Edwards. Thank you very much.
    Chairman Babin. Sorry about that.
    Ms. Edwards. Thank you very much. Just a little confusion 
here, just moving around. I'm curious--OSTP's national plans 
for civil observation includes an action entitled Explore 
Commercial Solutions, where federal agencies are actually 
tasked with identifying cost-effective commercial solutions to 
encourage private sector innovation while they preserve the 
public good nature of Earth observations. In particular, 
agencies are asked to consider a variety of options for 
ownership, management, and utilization of Earth observation 
systems and data, including commercial data buys and commercial 
data management. In developing such options, agencies are to 
preserve the principles of full and open data sharing, 
competitive sourcing, and best value in return for public 
investment, and I'm curious as to the viewpoints, if we could, 
quickly, should be the first steps in implementing this kind of 
guidance from OSTP. Starting with you, Dr. Pace?
    Dr. Pace. Well, I think one of the things that ought to be 
looked at is--look across all of the agencies that are involved 
in this sort of remote sensing. This means looking at what NGA 
is doing with its strategy, look at what NOAA is being asked to 
do, look at what NASA's looking to do. So don't look at it as 
simply an agency--single agency only sort of thing. It's really 
across the administration.
    And then you should be able to see, what portfolio mixture 
am I doing? Am I just--what things are being done as large 
traditional satellites? What areas do I have innovative smaller 
satellites, and what areas do I have a mixture of small data 
buys, or licensing, pilot programs? So I'm not trying to say 
what those number ought to be. I'm saying there ought to be a 
portfolio, and then there ought to be a discussion within this 
Committee, and within both sides of the Hill, as to what the 
right amounts of effort ought to be in those areas. But you 
ought to have a mixed portfolio, not just a single one.
    And so I don't think that the OSTP direction is quite being 
followed at point. I also don't think that the decadal survey 
recommendations, to look at more innovative sourcings, are 
being followed. And I think that NASA in particular is being 
burdened by large operational ongoing missions that--there's 
all kinds of good reasons why they're there, lack of 
appropriation allocations for NOAA, problems with the 302(b) 
allocation, all those sorts of things. But nonetheless, NASA is 
getting more burdens than simply you would expect from its 
decadal science queries.
    Ms. Edwards. Dr. Goward, do you have an opinion about this?
    Dr. Goward. Thank you. Just thought of four general 
guidelines in my experience over the years is--as Dr. 
Busalacchi had mentioned, insight versus oversight in private-
public partnerships is really critical, otherwise private 
industry gets hampered in innovating in the--in their work. But 
from the other side, private industry has to be willing to 
participate in arrangements where the observations are 
available for no cost distribution. Particularly for the 
Landsat mission we've gone from practically no usage of the 
historical record to usage that's in the millions over the last 
2 to three years because USGS has been willing to provide low 
cost--no cost access to the data record.
    Honestly, one of the limitations on--was that they were not 
allowed to compete in the applied commercial marketplace, and 
this was a serious problem for them. The--that company was 
unable to really build on their capacity to develop the 
commercial marketplace. They were prevented from doing so.
    Ms. Edwards. In the time that I have remaining, do any of 
the other witnesses have an opinion about OSTP's guidance, and 
how we can begin implementing that guidance?
    Dr. Scott. I'd say one of the first things to do is look at 
what the industry is both doing and capable of doing. There's 
often a tendency within government to make assumptions about 
the industry that are, in fact, not founded in fact, and a good 
place to start would be to reach out to the industry and find 
out what the industry thinks, what the industry is doing, what 
the industry is capable of doing.
    Ms. Edwards. And Dr. B, because I am butchering your name.
    Dr. Busalacchi. That's fine, I'm used to it. So I've 
already spoke to the issue of the heritage of the methodology. 
In the case of SeaWiFS, with respect to data access challenge, 
in order for Orbital Sciences to market ocean color data, NASA 
did not have free and open access to the data, and overall this 
data access arrangement worked well for research. The 
researchers had to register and verify that they were only 
using SeaWiFS data for research, and not for commercial 
purposes. And even though most of the research with SeaWiFS was 
done in delayed mode, we even still, within the rights of the 
data license, had access to the data in real time for certain 
cruises.
    So, going forward, any public-private partnerships need to 
develop a cost model based on data latency, archival, access, 
and resolution. It's going to be really issue to sort of--
really important to tackle those issues.
    Ms. Edwards. Thank you very much, and I yield the balance 
of my--well, I don't have any time, but I yield it anyway.
    Chairman Babin. Thank you, Ms. Edwards. Let's see. I'd like 
to recognize the gentleman from Arkansas, Mr. Westerman.
    Mr. Westerman. Thank you, Mr. Chairman, and thank you to 
the panel for being here today. Dr. Goward, you talked about 
Landsat being the Rodney Dangerfield, but, you know, I would 
like to give it maybe a little bit of respect today. Having 
worked in the forestry industry, I've seen how the imagery can 
be used. You know, in all--we've had developments in the 
analytics, being able to look at the images and gain more from 
the images. You know, in a wintertime photograph you can tell 
coniferous trees from deciduous trees. And then--now, through 
spectral imagery, you can look at the different signatures of 
the colors of the leaves, and get a species distribution 
through it.
    So I know that the analytics have advanced, but how would 
you say the image resolution and quality of data has changed 
for Landsat over its 43 year history? And maybe, just briefly, 
Landsat-1 versus Landsat-8?
    Dr. Goward. The changes have been subtle. The changes 
occurred between Landsats 3 and 4, when we went from one type 
of a sensor, MSS, to thematic mapper, TM. And then with the LOI 
on Landsat 8, a number of changes occurred. Additional bits of 
data to characterize illumination conditions, narrowing of the 
bands to increase avoidance of atmospheric contamination.
    So they may be subtle, but they get critically important 
information that allows us to more and more reliably evaluate 
forests, agricultural production, other features that we just 
simply get better at as we refine our instrumentation.
    Mr. Westerman. So we've got a long record of continuous and 
comparable observation that has allowed users to document 
changes to the land surface and other features over decades. 
What are the advantages and disadvantage of--and disadvantages 
of deploying Landsat instruments on other satellites, whether 
government or commercial, instead of recreating the same 
Landsat satellite as the one vehicle for U.S. moderate 
resolution land imaging?
    Dr. Goward. I see no reason not to deploy an equitable 
instrument on a variety of platforms. The things you have to be 
careful about are the orbital patterns, whether you're in a sun 
synchronous, or in a solar variant observation condition. But 
you're certainly not constrained to a single platform.
    Mr. Westerman. So you think we can maintain the aspects of 
the data continuity with different platforms?
    Dr. Goward. No, absolutely, and it's more that the detail 
level of the instrument characteristics is critical.
    Mr. Westerman. Okay. So the cost of Landsat-8 was about a 
billion dollars, and the Administration is now preparing to 
develop Landsat-9, I think the last I saw a 2023 launch for 
Landsat-9, which is essentially a clone of Landsat-8. Is there 
a rush to develop Landsat-9, or does the government have the 
time to evaluate all options for satisfying these data 
requirements? And what would you recommend NASA do?
    Dr. Goward. It's an interesting problem. The design life of 
Landsat-8, from an engineering point of view, is five years. So 
that, by the time we get to 2023, we're over ten years. Now, do 
we suffer a failure in between time? I don't know. We certainly 
had had problems with Landsat-7 early on, and it could happen 
again. So are we in a rush? Should be, because we should move 
that timeline for the next launch to an earlier date, if at all 
possible.
    Mr. Westerman. So how many Landsats are we getting imagery 
from now? Are there still two----
    Dr. Goward. Still two.
    Mr. Westerman. And what--those are eight and----
    Dr. Goward. And 7.
    Mr. Westerman. Okay.
    Dr. Goward. And 7, of course, has a partially functioning 
mirror system.
    Mr. Westerman. Okay. And with that I'll yield back, Mr. 
Chairman.
    Chairman Babin. Thank you, Mr. Westerman. Now I'd like to 
recognize the gentleman from Virginia, Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman, and I would like to 
thank both Chairmen and both Ranking Members for putting this 
together. And thank all of you for coming. It's been 
fascinating.
    Mr. Schingler, a--probably a stupid question, but you 
mentioned that you have the--100 doves up in a single sun-
synchronous orbit. Are these spaced all around the globe, in 
the orbit itself,and is it really just a single orbit, or a 
single orbit for each dove?
    Mr. Schingler. Yeah, let me clarify. So over the last 2-1/2 
years we have launched 101 satellites on nine different 
rockets. All of those have been as secondary payloads, and the 
majority of them have been through the International Space 
Station. And the International Space Station is in a 52 degree 
orbit, so it is not in a sun-synchronous orbit. Over the next 
12 months we have a number of launches, including one that is a 
dedicated rocket, that is going to our ideal orbit, which is a 
475 kilometer sun-synchronous orbit. And that one launch, in 
and of itself, will be able to allow for us to have daily 
coverage.
    And the way that that works is we distribute the satellites 
along track in one particular sun-synchronous orbit, and as the 
Earth rotates underneath it, our satellites act together, kind 
of like a line scanner, in order to image the entire surface of 
the Earth.
    Mr. Beyer. Line scanner's a great image, so thank you--and 
the size of the satellites?
    Mr. Schingler. The size of our satellites are five 
kilograms. They're in the 3U form factor, so it is--one person 
can pick it up.
    Mr. Beyer. Yeah, very cool. And, Dr. Goward, your last 
recommendation said NASA and the U.S. private sector need to 
move away from increasingly expensive single satellite builds 
towards lower cost, high temporal repeat Landsat class 
observatories, et cetera. Is this what Planet Labs is doing, or 
is this what DigitalGlobe is doing?
    Dr. Goward. What Planet Labs and DigitalGlobe are doing are 
not the same thing. What we're really talking about, for a 
Landsat system, is one that covers four different parts of the 
electromagnetic spectrum, and some of those require a more 
complex platform than what, for example, Planet Earth will be 
flying. And when I mention the lower cost SmallSAT alternative, 
we're talking about more on the order of three to 500 kilogram 
satellites, rather than five kilogram.
    Mr. Beyer. Okay. Great, thank--yes, Mr. Schingler?
    Mr. Schingler. Yeah, absolutely, the Landsat platform is 
really quite exquisite in its spectral capability. And that is 
something that we have longitudinal information over the last 
42 years, and want to continue moving forward. I think part of 
the concept is it may be possible to launch an instrument that 
does not do all of the spectral bands in one satellite, but 
instead you can have a couple of different satellites that then 
focus on the phenomenology that we want to continue as a global 
community with Landsat.
    Mr. Beyer. One of the things I've been impressed by today 
with--including all these degrees, as Chairman Bridenstine 
noticed, is how many of you have moved back and forth from 
government to private sector. Dr. Pace, do you have any 
concern, with your NASA and your private sector perspective, 
that there would be a loss of in house expertise as we 
outsource more and more to the commercial sector?
    Dr. Pace. That's a great question. I think that's actually 
really central to thinking about what do we want NASA to do to 
be a smart buyer? I think NASA should always have one or two 
spacecraft builds in house that they do themselves to make sure 
they have that hands-on expertise. At the same time, I think 
that NASA is comfortable and--with the idea of buying--and 
relying on the private sector, and doing commercial data buys.
    And I think, as NASA has been asked to do more and more 
missions without really an increase in its top line, I think 
it's going to become more incumbent on them to find ways of 
partnering with the private sector. So I would first say make 
sure they have expertise in house at places like Goddard, but 
also make sure that they start relying more on the private 
sector to acquire the data. And, as Dr. Scott said, the best 
way to do that is to ask industry. Too often we can assume what 
industry can do. And it's perfectly possible for industry not 
to be able to meet requirements at a certain point in time, so 
it's always important to have a backup plan. Having a primary 
plan of, you know, a conventional spacecraft, okay, but make 
sure you also have a backup plan, or an alternative, doing 
something more innovative. And, really, I think the agency 
should be doing both.
    Mr. Beyer. Great, thank you. Dr. Busalacchi, I only have a 
minute, but you were deeply involved in SeaWiFS. Was that cost 
effective? And using Orbital Sciences, was there added value 
gained from partnering that perhaps offset the extra cost?
    Dr. Busalacchi. Well, SeaWiFS was a grand success in terms 
of the quality of the science data we got, and the cost to the 
government was actually less as a direct result of the private 
sector data buy. Now, whether or not Orbital Sciences made a 
profit, I'm not the one to speak about that, in Virginia, for 
example. But, again, it was a grand success from the science 
point of view.
    But what we don't realize, oftentimes, is how important the 
engineers at Goddard--the role that they play. Even though this 
was technically a data buy, there were a number of challenges 
that came up. The mission was delayed by four years, and 
Goddard engineers, in the end, provided considerable support on 
the engineering side for power system, altitude control, 
navigation system, component quality. We had a very good 
working relationship, but the point was--is that--as opposed to 
a number of the topics here this morning, there was not a lot 
of heritage in the instrument. There was the prior coastal zone 
color scanner, but beyond that, there was a novel lunar 
calibration, so there was really the need for expert 
engineering support from an organization like Goddard.
    Mr. Beyer. Great. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Babin. Yes, I'd like to recognize the gentleman 
from Colorado, Mr. Perlmutter.
    Mr. Perlmutter. Thanks, Mr. Chairman, and to Dr. Scott, 
long time no see. Appreciated the tour last week of 
DigitalGlobe. And I guess my question--I'll start with you. 
You've got this giant library of information. Who gets access? 
Who curates it? How does anybody figure out all the stuff 
that's in there?
    Dr. Scott. So we have generated about 100 petabytes or so 
of data. It's accessible in the cloud. It's catalogued by an 
increasing amount of metadata, starting with just when it was 
collected, but growing to include a lot of information about 
what's actually in the image. And we've exposed that to our 
customer community via something we call a geospatial big data 
platform, which is fundamentally about not trying to take these 
huge data boulders and say, you know, here's 100 petabytes of 
data, good luck finding a place to put it, instead enabling 
people to access data in the cloud with a set of algorithms 
that are wrapped around it to enable exploitation, and a 
growing ecosystem of partners who contribute those algorithms 
to enable the exploitation.
    Mr. Perlmutter. So if I wanted to see something involving 
the soils in some country in Africa, how do I get that 
information to you, and then how do you provide me that slice 
of information?
    Dr. Scott. So there are a couple of ways of gaining access 
to that. If you're interested in viewing the data, just looking 
at the data, there are web services where we expose that data 
to you over the web. If you're interested in performing 
analytics, you can bring your algorithms, or use algorithms 
from one of our partners, like Harris, who offers the ENVI 
toolkit, the image processing toolkit, and perform that 
processing in the cloud. We have a set of application program 
interfaces, as well as user interfaces, that allow you to 
search for what's available in that particular region, and then 
drop that data into your Amazon S3 bucket for subsequent 
processing.
    Mr. Perlmutter. I guess what I'm--and I appreciate that. So 
you--DigitalGlobe--and to the other panelists, please jump in 
if you want--we're accumulating lots of information out there. 
And we don't know all the potential users of that, and 
precisely what they want to do with it. So if I am the United 
States Government--let's say I'm the Air Force. I pay you some 
certain fee for access to all of it, any time I want it, and 
then some other user of the library may have a much more 
limited cost, and, you know, library card that allows just 
access to certain things. Is that how it works?
    Dr. Scott. I think that's a great model, actually. It's 
sort of a customized library card with rights that are 
consistent with how you intend to use the data. We support a 
range of business models. Some of those business models involve 
the actual delivery of data. Other business models involve--you 
get a library card for data analytics, and we receive our 
compensation in any of a number of ways, some of which are 
revenue share based, some of which are subscription fee based.
    Mr. Perlmutter. Okay. So to all of the panelists, I mean, 
if there were one or two things that we, as members of 
Congress, could do to make sure that the technology that you 
all are developing, whether it's on the information side, or 
flying the satellite side, or the optical pieces, what could we 
do, maintaining security for the nation, yet allowing you to 
continue to grow the commercial side of this? Mr. Schingler.
    Mr. Schingler. So I think the first thing is we should 
figure out a way to relatively quickly get access to the 
commercial capability that's there, and to engage in a dialogue 
to really understand more--not just what the product is, but 
the capabilities of industry. That will help to inform 
strategies around procurement, and other things, into the 
future.
    And secondly is--for things into the future, we should look 
at other transactional authorities, which do allow for the 
commercial entity to continue to build their commercial 
service, while relatively quickly sell a capability to the U.S. 
Government.
    Mr. Perlmutter. Okay. Thank you. Dr. Pace?
    Dr. Pace. I would add that we should probably be looking 
beyond just the initial data acquisition and the satellite side 
itself, and to think about where could commercial providers be 
part of the data archiving and processing, analysis function in 
the cloud. That is not something which is a government unique 
function. And there's also systems where commercial users could 
share, you know, the same hosting infrastructure, and that's 
whole other market, you know, in and of itself. It's just data. 
It's not particularly specialized.
    The second thing I would mention, this is probably a 
subject of a different hearing, is making sure that NOAA's 
commercial licensing and regulatory process responds to the 
changes in technologies in markets that have been going on. The 
regulations that were written in the early '90s really, in many 
cases, have become a bit outmoded. There's a lot that's really 
good, but there's a lot that's really largely irrelevant today, 
and I think that kind of regulatory responsiveness is a subject 
that the industry needs.
    Mr. Perlmutter. Thank you, and I yield back to the Chair.
    Chairman Babin. Thank you. Now we're going to go back 
through for a second round of questions, and we're going to 
limit this to three minutes, if that's okay with everyone.
    So my first question would be to Dr. Pace. In your 
testimony you mentioned that there's a need to protect the 
electromagnetic spectrum used by remote sensing and GPS. Now, 
if you would, please explain in more detail to the Committee.
    Dr. Pace. Well, sir, for example, remote sensing is 
crucially reliant upon things like GPS to provide the actual 
location of the data. So if there's interference with GPS, 
there's interference with the remote sensing industry.
    Chairman Babin. Uh-huh.
    Dr. Pace. There's also great pressure on all space spectrum 
by commercial communications. Everybody understands the 
importance of mobile broadband, the importance of that to the 
economy and growing the economy, but also there are unique 
functions that are under great pressure. One area in particular 
that's come up recently, and I'm sorry to use the phrase, six 
to nine gigahertz. There's some high frequencies that are being 
talked about for--in a Senate--on the Senate side, and this 
incorporates--covers a lot of microwave sounders that are used 
by multiple weather systems. And you can't move to other areas. 
The water molecule doesn't vibrate in some places. It's not 
flexible. And so I would suggest paying attention to spectrum 
as an underlying need of the industry, particularly for 
critical sensors that really can't be moved anyplace else.
    Chairman Babin. Thank you. And then this would be a 
question for Dr. Goward and Dr. Pace. Does the U.S. Government 
have a requirement to maintain one or two Landsat satellites at 
a time?
    Dr. Goward. Undefined.
    Chairman Babin. Undefined?
    Dr. Goward. Um-hum.
    Chairman Babin. Okay. That answered that. How about Dr. 
Pace? Same thing?
    Dr. Pace. Nothing to add. It's--that's been part of the 
long story of Landsat.
    Chairman Babin. Okay. And then, real quick, all--in the 
next ten years, what major developments will be made 
commercial, remote sensing, and could these developments be 
used by NASA to improve their imaging efforts, or decrease the 
cost of remote sensing to the government? And if one of you 
would be glad to answer that, I would appreciate it. Dr. Scott?
    Dr. Scott. Well, I think there are a number that have 
already been made, and this may actually be relevant to one of 
the earlier questions. Our most recent satellite launch, 
WorldView-3, incorporates 16 spectral bands of high resolution 
data, plus an additional 11 spectral bands of 30m resolution 
atmospheric data. And that was done leveraging technology that 
had been developed for the Landsat program, but at a very small 
fraction of the cost of a Landsat satellite. That's just an 
example of the sort of innovations that are happening in the 
commercial sector that I would encourage the government to 
understand better in making its future decisions.
    Chairman Babin. Okay. Thank you. I would like to recognize 
Mr. Perlmutter again, from Colorado.
    Mr. Perlmutter. Can I pass to Mr. Bridenstine as I'm 
collecting my thoughts here?
    Chairman Babin. Certainly.
    Mr. Perlmutter. Okay.
    Chairman Babin. I want to recognize the gentleman from 
Oklahoma, Chairman Bridenstine.
    Mr. Bridenstine. So you're giving me all three of your 
minutes? Is that what's going on here? No, I'm kidding. I'll 
take my own three minutes. Thank you, Chairman, and Mr. 
Perlmutter. A couple of thoughts I had. You mentioned, Mr. 
Schingler, the exquisite spectral bands and capabilities from 
Landsat, and maybe that's not your area of expertise, but you 
could have a distributed architecture, or disaggregation, where 
you could have different satellites doing different things.
    I heard, you know, Dr. Pace talk about--in his testimony he 
talks about maybe not commercializing Landsat, but using other 
sources to gather data. Is it possible, when you think about 
Landsat, and the commercial opportunities that are out there 
right now, can we gather similar data that would be useful, 
given the exquisite spectral bands that Landsat uses? Can 
commercial provide a resource in addition to Landsat, Dr. Pace?
    Dr. Pace. Yeah, I think it can, and I think it would make 
for a robust series. Landsat data continuity is one of the 
precious things that the science community has, and rightly 
wants to guard, so having additional satellites has been 
mentioned. The idea of a single Landsat was never the original 
idea. It was always to have this kind of continuous 
observation. That, to me, sounds like a service that could be 
provided, with maybe government as a foundation, but with 
complements from the private sector in a way that, I would 
argue, is analogous to what's been talked about with GPS radio 
occultation.
    Mr. Bridenstine. I noticed that in your testimony, and 
thank you for bringing that up. I was not expecting that, but 
that's something we've worked hard on this Committee to have, 
radio occultation move alongside the other great capabilities 
that are being provided by NOAA, to move alongside it. And 
we've actually carved out some funding in our bill here on this 
Committee to make sure that NOAA could purchase that data. And, 
of course, working with Dr. Voles and Admiral Brown on those 
capabilities has been a great experience.
    One last thing with my last 50 seconds, and maybe this is a 
question for Dr. Scott, we heard Dr. Pace talk about 
consistency in the regulatory framework coming from the 
Department of Commerce, coming from NOAA. Of course, that's 
critically important to this kind of industry. You make 
investments, and those investments are for your shareholders. 
At the same time, you're signing up contracts. When those 
regulations change in midstream, that can have negative 
consequences. Can you share with us if there's anything we can 
do to ensure that there's--maybe we can, maybe we can't, but 
how does that affect you, as a business owner?
    Dr. Scott. So when you build satellites that take a few 
years to build, and operate for a decade or longer, and have 
invested billions of dollars in the course of doing that, the 
stability of the regulatory environment is absolutely 
essential. You need to know, and your customers need to know, 
that they can rely on continuity of service, and that there 
won't be variability subject to essentially the whim of a 
government agency.
    We've been fortunate that we have enjoyed, to date, an 
environment where, while it has not necessarily been as forward 
leaning as we would like, it's been stable. The ability of that 
regulatory environment to, instead of react to, but rather 
enable industry to anticipate market needs, that's something 
that we would like to see change. The pace of technology is 
moving far faster than the regulatory environment that was 
conceived back in the 1990s can remotely keep up with. And 
that's really one of the biggest impediments in the industry 
going forward.
    Mr. Bridenstine. Thank you. Mr. Chairman, I yield back.
    Chairman Babin. Yes, sir, thank you. Now I'd like to 
recognize the gentlewoman from Maryland, Ms. Edwards.
    Ms. Edwards. Thank you, and I'll be brief. I'm just curious 
to know if there are some markers that can help us determine 
when and if NASA should use public-private partnerships for 
data collection. Is there, you know, some--one point, or--and 
then how should they be evaluated? Because I think we've gotten 
a handle on how we evaluate NASA driven, internal driven 
projects. How do we evaluate public-private partnerships? And 
if I could start with Dr. Scott, to Mr. Schingler, to Dr. 
Busalacchi in that order, and do it as quickly as possible. How 
to determine when and if, and how to evaluate them?
    Dr. Scott. Probably the simplest phrase is start with 
asking. So start with exposing to industry what the needs are, 
and at the same time, engage in a dialogue with industry to 
understand what the capabilities are. One of the reasons why we 
have historically been able to acquire satellites very cost-
effectively is that we approach the problem from both ends. We 
approach it from the standpoint of what is the technical 
capability, and then what are the business needs and the 
business opportunities? And we look for the intersection of 
those, as opposed to approaching it unilaterally from one side 
and say, well, you know, here's what we want, never mind the 
fact that it's nearly impossible to achieve it. We look for the 
intersection.
    Mr. Schingler. So for when to evaluate it, or for when to 
approach public-private partnerships, I think you first do need 
to evaluate it first, before you get into a complex arrangement 
between industry and government. And that evaluation, just 
exactly as Dr. Scott is saying, should be based on the service 
as it is today, and the direction of where it's going. And it 
may not be from the traditional requirements driven approach, 
but more of a capabilities-based approach. And that the 
assessment of the data shouldn't be necessarily taken by 
itself, but actually in conjunction with other data assets that 
are already there.
    Dr. Busalacchi. So by forming points, as I mentioned, 
heritage, NASA's very good at assessing technical readiness, 
what is the reduced cost to the government, and what is the 
market demand in the commercial sector, and then evaluating 
what is the elimination, or reduction, in the financial and 
operational risk, what is the increased efficiency to be had, 
and what is the reduction in the fixed cost? I say those five 
main things can be evaluated.
    Ms. Edwards. Thank you. 25 seconds to spare, and I yield.
    Chairman Babin. Thank you. Appreciate it, Ms. Edwards. And 
I'd like to recognize the gentleman from Colorado.
    Mr. Perlmutter. Thank you. Thanks, Mr. Chairman. Dr. 
Busalacchi, just a question, and congratulations, I think, are 
in order for you to co-chair the decadal --- you know, I've got 
to tell you, before I ever got on this Committee, I never heard 
the word decadal before, and I never was quite sure--apparently 
it's every ten years. It doesn't have anything to do with 
decay, does----
    Dr. Busalacchi. No, but our report will be done in much 
less than a decade.
    Mr. Perlmutter. All right. So my question to you is, as a 
co-chair with Dr. Abdalati, from the University of Colorado, by 
the way, are you going to be focusing on how the data's 
collected, or what types of data are collected, or both? I 
mean, can you share what your focus of the committee's going to 
be?
    Dr. Busalacchi. So I'm not being facetious, it is all of 
the above. It will be looking at what census--or what missions 
where in the queue from the previous decadal survey that have 
yet to be realized, what new science and applications may be 
possible going forward, and, as we've been hearing here, what 
role can the private sector play, and what are the new 
technologies? Just right now the academy is having--spinning up 
a report that will be out before our report on CubeSATs. And so 
I fully agree with Mr. Schingler, access to space is a key 
issue, and if we could lower down the cost to access to space, 
the potential is there for these CubeSATs to be up there, and 
really change sort of our approach. So, again, short answer is 
yes to all of, existing science, new science, new technologies, 
and commercialization in the private sector.
    Mr. Perlmutter. Thank you, Doctor, and I'll yield back to 
the Chair.
    Chairman Babin. Thank you, Mr. Perlmutter. I want to thank 
the witnesses for their testimony, and the Members for your 
questions. The record will remain open for two weeks for 
additional written comments, and written questions from 
members. And with that, this hearing is adjourned.
    [Whereupon, at 11:59 a.m., the Subcommittees were 
adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
                                 
                                 
                                 
                                 
</pre></body></html>
